App. 1
APPENDIX A
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CENTER FOR BIOLOGICAL )
)
DIVERSITY, et al.,
)
Plaintiffs,
)
v.
)
No. 18-cv-655 (KBJ)
)
KEVIN McALEENAN, Acting
Secretary of the Department of )
)
Homeland Security, et al.,
)
Defendants.
)
MEMORANDUM OPINION
(Filed Sep. 4, 2019)
More than 20 years ago, Congress enacted the
Illegal Immigration Reform and Immigrant Responsibility Act (“the IIRIRA” or “the Act”), an immigration
and border-security reform statute that was intended,
in substantial part, “to improve deterrence of illegal
immigration to the United States[.]” H.R. Rep. No. 104828, at 1 (1996) (Conf. Rep.); see also Illegal Immigration Reform and Immigrant Responsibility Act of 1996,
Pub. L. No. 104-208, Div. C., Title I, 110 Stat. 3009-546
(1996). To that end, Congress expressly authorized the
erection of physical barriers and roads “in the vicinity
of the United States border to deter illegal crossings in
areas of high illegal entry[,]” Pub. L. No. 104-208, Div.
C., Title I, § 102(a), 110 Stat. 3009-546, 554 (1996), and

App. 2
it specifically identified the border near San Diego,
California, as one such area, id. § 102(b). Moreover, in
order to facilitate swift construction of these new border barriers, Congress authorized the Attorney General of the United States to waive otherwise-applicable
provisions of two environmental statutes—the Endangered Species Act of 1973 (“ESA”), 16 U.S.C. §§ 153144, and the National Environmental Policy Act of 1969
(“NEPA”), 42 U.S.C. §§ 4321-4370m-12—to the extent
“necessary[,]” as determined by the Attorney General.
Pub. L. No. 104-208, Div. C., Title I, § 102(c), 110 Stat.
3009-546, 554 (1996). Significantly for present purposes, in the 23 years that have transpired since the
initial passage of the IIRIRA, Congress has amended
the statute not only to identify additional priority areas for construction, see Secure Fence Act of 2006, Pub.
L. No. 109-367, § 3, 120 Stat. 2638, 2638-39 (2006);
Dep’t of Homeland Sec. Appropriations Act, 2008, Pub.
L. No. 110-161, § 564, 121 Stat. 1844, 2090-91 (2008),
but also to expand the waiver authority to include all
laws (not just the two environmental statutes), and to
limit significantly the jurisdiction of the federal courts
to adjudicate challenges to waivers that are issued pursuant to the IIRIRA’s rapid-construction mandate, see
REAL ID Act of 2005, Pub. L. No. 109-13, Div. B, Title
I, § 102, 119 Stat. 231, 306 (2005).
The scope of the IIRIRA’s waiver authorization
and this Court’s ability to consider legal actions that
contest the government’s waiver of environmental
laws to speed the construction of border barriers are
the core legal issues in the instant case. On January

App. 3
22, 2018, the Secretary of the Department of Homeland
Security (“DHS”) announced that DHS was invoking
the IIRIRA to waive the application of 25 laws with respect to the construction of physical barriers along a
20-mile stretch of the border in New Mexico (hereinafter “the New Mexico Waiver”). See Determination Pursuant to Section 102 of the IIRIRA, as Amended, 83
Fed. Reg. 3,012, 3,013-14 (Jan. 22, 2018). Plaintiffs
Center for Biological Diversity, Southwest Environmental Center, Defenders of Wildlife, and Animal Legal Defense Fund (“Plaintiffs”) have brought the instant
action to contest the DHS Secretary’s waiver decision;
they claim, primarily, that the Secretary’s waiver determination is ultra vires and unlawful “because it exceeds the limited grant of authority for such waivers
contained in IIRIRA Section 102,” (Compl., ECF No. 1,
¶ 2), and that the New Mexico Waiver “will have numerous negative impacts on the wildlife, plants, and
the sensitive biological habitats on and near the proposed” project site (id. ¶ 60). Plaintiffs also insist that
the IIRIRA’s waiver authority is unconstitutional in
various ways. (See id. ¶ 2 (“[A]ny interpretation of
[IIRIRA] Section 102 that would sanction the issuance
of the New Mexico Waiver would render this statutory
provision so broad and unbounded in scope that it
would run afoul of the [c]onstitutional principles of
Separation of Powers, the Non-Delegation Doctrine,
the Presentment Clause and other constitutional provisions.”).)
Before this Court at present are two dispositive
cross-motions that the parties in this matter have filed.

App. 4
Plaintiffs have moved for summary judgment on their
ultra vires and constitutional claims, and DHS has
moved to dismiss Plaintiffs’ claims or, in the alternative, request summary judgment. (See Pls.’ Mot. for
Summ. J. (“Pls.’ Mot.”), ECF No. 16; Defs.’ Mot. to Dismiss & Alternatively Cross-Mot. for Summ. J. (“Defs.’
Mot.”), ECF No. 21.) DHS maintains, as a threshold
matter, that this Court lacks subject-matter jurisdiction to determine whether the New Mexico Waiver is
ultra vires, because “Congress has expressly withdrawn
district court jurisdiction to review non-constitutional
challenges to the [DHS] Secretary’s exercise of waiver
authority[.]” (Defs.’ Opp’n to Pls.’ Mot. & Mem. in Supp.
of Defs.’ Mot. (“Defs.’ Mem.”), ECF No. 21-1, at 21.)1 In
addition, DHS asserts that Plaintiffs’ claims are meritless, because the Secretary has not exceeded the
agency’s statutory authority in issuing the New Mexico Waiver (see id. at 26-42), and because the IIRIRA’s
grant of waiver authority is not so broad as to violate
the Constitution (see id. at 42-50). Plaintiffs respond
that the Court has jurisdiction to hear their ultra vires
claims despite the statutory restrictions on judicial review because the New Mexico Waiver was not properly
issued pursuant to the IIRIRA (see Pls.’ Mem. in Supp.
of Pls.’ Mot. (“Pls.’ Mem.”), ECF No. 16-1, at 42-45), and
they further maintain that they are entitled to summary judgment with respect to their ultra vires and
constitutional claims (see id. at 26-42, 45-54).
1

Page-number citations to the documents that the parties
have filed refer to the page numbers that the Court’s electronic
filing system automatically assigns.

App. 5
For the reasons explained fully below, this Court
concludes that Congress has unambiguously precluded
all non-constitutional legal challenges to the exercise
of the DHS Secretary’s waiver authority, including ultra vires claims. Adding a belt to these suspenders,
Congress has further removed this Court’s subjectmatter jurisdiction over any non-constitutional waiver
challenges; therefore, this Court is without power to
address the merits of Plaintiffs’ ultra vires contentions.
The Court also finds that Plaintiffs’ constitutional
claims cannot proceed, based on the reasoning of a
persuasive prior opinion from this district that addresses the constitutionality of the IIRIRA’s section
102(c) waiver authority in substantially similar circumstances and holds that Congress has provided sufficient limitations to the agency’s exercise of power to
comport with the Constitution’s separation-of-powers
requirements. Consequently, Plaintiffs’ motion for summary judgment will be DENIED, and Defendants’
cross-motion will be GRANTED, insofar as both the
ultra vires and the constitutional claims will be dismissed. A separate Order consistent with this Memorandum Opinion will follow.
I.

BACKGROUND
A. Section 102 Of The Illegal Immigration
Reform and Immigrant Responsibility Act

Congress enacted the IIRIRA in 1996, seeking to
amend the Immigration and Nationality Act of 1965
(“INA”). As described in the Conference Report, the
purpose of the IIRIRA was

App. 6
to improve deterrence of illegal immigration
to the United States by increasing border
patrol and investigative personnel, by increasing penalties for alien smuggling and for
document fraud, by reforming exclusion and
deportation law and procedures, by improving
the verification system for eligibility for employment, and through other measures, to
reform the legal immigration system and facilitate legal entries into the United States,
and for other purposes[.]
H.R. Rep. No. 104-828, at 1. The IIRIRA “marked one
of the most significant reforms to immigration since
the [INA],” Marshal Garbus, Environmental Impact of
Border Security Infrastructure: How Department of
Homeland Security’s Waiver of Environmental Regulations Threatens Environmental Interests Along the
U.S.-Mexico Border, 31 Tul. Envtl. L.J. 327, 334 (2018),
and it was developed in the midst of a “political shift to
increase border security during the Clinton administration’s Southwest Border Strategy, which made
control of unauthorized immigration a top priority[,]”
id. at 335. Leading up to the enactment of the IIRIRA,
a measure known as “Operation Gatekeeper was the
Clinton administration’s initiative to control unauthorized immigration along the San Diego/Tijuana border, which had been one of the highest traffic locations
for unauthorized border crossings.” Id.2

2

In the four years preceding the IIRIRA’s enactment, “Operation Gatekeeper increased the deployment of border patrol officers by 60%, marking an unprecedented level of resources devoted

App. 7
1. Congress commands construction of physical barriers in “areas of high illegal entry
into the United States”
As originally enacted, section 102(a) of the IIRIRA
provided that the Attorney General “shall take such
actions as may be necessary to install additional physical barriers and roads (including the removal of obstacles to detection of illegal entrants) in the vicinity of
the United States border to deter illegal crossings in
areas of high illegal entry into the United States.” Pub.
L. No. 104-208, Div. C., Title I, § 102(a), 110 Stat. 3009546, 554 (1996) (codified at 8 U.S.C. § 1103 note).3 The
statute itself did not delineate what qualifies as an
“area[ ] of high illegal entry,” except insofar as section
102(b) provided specifically for “construction of fencing
and road improvements in the border area near San
Diego, California,” id. § 102(b) (capitalization altered).4
In section 102(b) of the IIRIRA, which is presently
entitled “Construction of fencing and road improvements along the border,” Congress proceeded beyond
section 102(a)’s broad grant of discretion to the Executive Branch with respect to border construction, to
to border security.” Garbus, Environmental Impact of Border Security Infrastructure, 31 Tul. Envtl. L.J. at 335.
3
Because of the numerous amendments to the IIRIRA over
the years, and because section 102 is codified as a note to 8 U.S.C.
§ 1103, this Court will cite to the provision only as “IIRIRA section 102,” and will identify the year of enactment only when citing
to versions other than that currently in effect.
4
The legislative history of the IIRIRA provides no further
indication of Congress’s intent with respect to the broad discretion it conferred upon the Attorney General.

App. 8
specify certain geographical areas along the southwest
border where “[a]dditional fencing” must be built, and
in this regard, it designated particular stretches of
land as “[p]riority areas[.]” IIRIRA § 102(b)(1)(A), (B).
Congress initially pinpointed a 14-mile stretch of the
international land border near San Diego, California,
“starting at the Pacific Ocean and extending eastward,”
and mandated construction “of second and third fences,
in addition to the existing reinforced fence, and for
roads between the fences.” IIRIRA § 102(b)(1) (1996)
(“Construction of Fencing and Road Improvements in
the Border Area Near San Diego, California”). In 2006,
Congress amended section 102(b)(1) to identify five areas along the southern border (no longer including the
14-mile stretch that section 102(b) had previously addressed), and specifically required the DHS Secretary
to “provide for at least 2 layers of reinforced fencing,
the installation of additional physical barriers, roads,
lighting, cameras, and sensors” in those five areas. Id.
§ 102(b)(1)(A) (2006).5

5

When Congress enacted the Homeland Security Act of 2002,
it transferred responsibility for border security from the nowabolished Immigration and Naturalization Service to the newly
created DHS. See Pub. L. No. 107-296, 116 Stat. 2135 (2002). Over
time, Congress expressly incorporated this change into the
IIRIRA’s section 102. See H.R. Rep. No. 109-72, at 171 (2005)
(Conf. Rep.) (explaining the replacement of “the reference in current law to the Attorney General by a reference to the Secretary
of Homeland Security” in the newly amended section 102(c)); Secure Fence Act of 2006, Pub. L. No. 109-367, 120 Stat. 2638, 2639
(2006) (incorporating “the Secretary of Homeland Security” in
amendments to section 102(b)); Dep’t of Homeland Sec. Appropriations Act, 2008, Pub. L. No. 110-161, § 564, 121 Stat. 1844, 2090

App. 9
Congress amended section 102(b)(1)(A) again in
2008; it eliminated the specified list of geographical areas and replaced that language with the following
statement: “In carrying out subsection (a), the Secretary of Homeland Security shall construct reinforced
fencing along not less than 700 miles of the southwest
border where fencing would be most practical and effective and provide for the installation of additional
physical barriers, roads, lighting, cameras, and sensors
to gain operational control of the southwest border.”
Id. § 102(b)(1)(A). However, Congress remained silent
with respect to how or why the Secretary was to select
“not less than 700 miles” for fencing along the southwest border. See, e.g., Michael John Garcia, Cong. Research Serv., R43975, Barriers Along the U.S. Borders:
Key Authorities and Requirements, at 11-12 (2016).
As mentioned previously, through its various
amendments to the IIRIRA’s section 102, Congress has
consistently and unequivocally established that, with
respect to the creation of physical barriers and roads,
certain spots along the southern border are “[p]riority
areas.” Id. § 102(b)(1)(B). In 2006, section 102(b)(1)(B)
provided specific deadlines for the construction of such
barriers in two of the five geographic areas that Congress identified. See id. § 102(b)(1)(B) (2006). Most
recently, in 2008, Congress amended the “[p]riority
areas” provision—section 102(b)(1)(B)—to require the
Secretary of DHS to “identify the 370 miles, or other
(2008) (amending section 102(a) “by striking ‘Attorney General,
in consultation with the Commissioner of Immigration and Naturalization,’ and inserting ‘Secretary of Homeland Security’ ”).

App. 10
mileage determined by the Secretary . . . along the
southwest border where fencing would be most practical and effective in deterring smugglers and aliens attempting to gain illegal entry into the United States[.]”
Id. § 102(b)(1)(B)(i).6 The statute further specifies that
this “authority . . . shall expire on December 31, 2008,”
id., and that fencing along those 370 (or other) miles
must be completed “not later than December 31, 2008,”
id. § 102(b)(1)(B)(ii).
The 2008 amendments also added a new provision
to section 102(b)(1) that required DHS to “consult with
the Secretary of the Interior, the Secretary of Agriculture, States, local governments, Indian tribes, and
property owners in the United States to minimize the
impact on the environment, culture, commerce, and
quality of life for the communities and residents located near the sites at which such fencing is to be constructed.” Id. § 102(b)(1)(C)(i).
2. Congress permits waiver of laws that impede construction of border barriers, and
limits federal litigation concerning such
waivers
Notably, in addition to requiring the construction
of physical barriers and roads in highly trafficked areas of the border, Congress also cleared the way for
6

Once more, Congress provided no indication within the
statute as to how or why the Secretary was to identify 370 (or
other) miles, and, as far as this Court can discern, the legislative
history contains no such explanation.

App. 11
swift execution of the IIRIRA’s section 102 borderbarrier mandate. At the time the IIRIRA was enacted,
certain environmental statutes were chief among the
legal impediments to the rapid construction of the
physical barriers and roads that the statute prescribed—specifically, the Endangered Species Act and
the National Environmental Policy Act7—and Congress
expressly addressed its concerns about the delay that
enforcement of such environmental mandates might
engender in the text of the IIRIRA itself, by authorizing the waiver of the requirements that these two statutes impose. When enacted in 1996, section 102(c)
stated: “[t]he provisions of the [ESA] and the [NEPA]
are waived to the extent the Attorney General deems
necessary to ensure expeditious construction of the
barriers and roads under this section.” IIRIRA § 102(c)
(1996).
By 2005, it had become clear that, “[d]espite the
existing waiver provision, construction of the San
Diego barriers has been delayed due to a dispute involving other laws.” H.R. Rep. No. 109-72 (Conf. Rep.),
at 171 (2005). Consequently, Congress amended the
7

For example, under the ESA, before authorizing building
projects, federal agencies are required to consult with the Fish
and Wildlife Service to “insure [sic] that any action authorized,
funded, or carried out by such agency . . . is not likely to jeopardize
the continued existence of any endangered or threatened [non-marine] species[.]” 16 U.S.C. § 1536(a)(2). Similarly, under the NEPA,
prior to undertaking a “major Federal action[ ] significantly affecting the quality of the human environment,” 42 U.S.C.
§ 4332(2)(C), an agency is required to conduct an extensive evaluation of the environmental consequences of that proposed action.

App. 12
IIRIRA’s waiver provision to permit the DHS Secretary
to waive all legal requirements that can impede expeditious construction of border barriers, see IIRIRA
§ 102(c)(1); see also H.R. Rep. No. 109-72, at 171 (explaining that “[c]ontinued delays caused by litigation
have demonstrated the need for additional waiver authority with respect to other laws that might impede
the expeditious construction of security infrastructure
along the border[,]” and noting that Congress decided
to authorize the waiver of “all laws” rather than “all
legal requirements” in order to “clarify[ ] [its] intent
that the Secretary’s discretionary waiver authority
extends to any local, state[,] or federal statute, regulation, or administrative order that could impede expeditious construction of border security infrastructure”).
Thus, section 102(c) now specifies that
[n]otwithstanding any other provision of law,
the Secretary of Homeland Security shall
have the authority to waive all legal requirements such Secretary, in such Secretary’s sole
discretion, determines necessary to ensure
expeditious construction of the barriers and
roads under this section. Any such decision by
the Secretary shall be effective upon being
published in the Federal Register.
IIRIRA § 102(c)(1).
Finally, and significantly for present purposes,
Congress also specifically addressed—and significantly
restricted—the scope of the federal courts’ authority
to review legal challenges that arise from DHS’s implementation of the IIRIRA’s waiver provision. This

App. 13
change occurred as part of the package of amendments
that expanded the DHS Secretary’s waiver authority
in the manner described above. In its entirety, the provision of the IIRIRA’s section 102(c) that addresses federal court review states:
(2) Federal court review.—
(A) In general.—The district courts of
the United States shall have exclusive jurisdiction to hear all causes or
claims arising from any action undertaken, or any decision made, by the
Secretary of Homeland Security pursuant to paragraph 1 [i.e., the waiver
provision]. A cause of action or claim
may only be brought alleging a violation of the Constitution of the United
States. The court shall not have jurisdiction to hear any claim not specified in this subparagraph.
(B) Time for filing of complaint.—
Any cause or claim brought pursuant
to subparagraph (A) shall be filed not
later than 60 days after the date of
the action or decision made by the
Secretary of Homeland Security. A
claim shall be barred unless it is filed
within the time specified.
(C) Ability to seek appellate review.—
An interlocutory or final judgment,
decree, or order of the district court
may be reviewed only upon petition

App. 14
for a writ of certiorari to the Supreme
Court of the United States.
Id. § 102(c)(2).
Per the above-quoted statutory language, any legal action challenging an act of or determination by the
DHS Secretary with respect to the waiver of legal requirements in order to facilitate the construction of
physical barriers along the border pursuant to subsection 102(c)(1) must allege a constitutional violation,
and has to be filed in federal district court within 60
days of the Secretary’s notice of such waiver. See id.
§ 102(c)(2)(A), (B). In addition, the federal district
court (which has exclusive jurisdiction to hear any
such claims) can entertain such a challenge only if the
claim alleges a violation of the Constitution. See id.
§ 102(c)(2)(A). Furthermore, the Supreme Court is the
only tribunal vested with the authority to review any
such district court determination. See id. § 102(c)(2)(C).
In this way, Congress has made crystal clear that it
intends “to ensure that judicial review of actions or decisions of the Secretary not delay the expeditious construction of border security infrastructure, thereby
defeating the purpose of the Secretary’s waiver.” H.R.
Rep. No. 109-72, at 172.
B. Facts Pertaining To The Instant Challenge
Prior to 2017, the Secretary of DHS had issued
waivers pursuant to section 102(c) of the IIRIRA on
just five occasions. (See Pls.’ Mem. at 20; Defs.’ Mem. at

App. 15
16.)8 Each of these waivers related to one of the construction projects that Congress had specifically delineated in section 102(b). (See Pls.’ Mem. at 36 & n.32.)
Then, on January 25, 2017, President Donald Trump
issued Executive Order No. 13,767—entitled “Border
Security and Immigration Enforcement Improvements”
—which, among other things, ordered the DHS Secretary to “take all appropriate steps to immediately plan,
design, and construct a physical wall along the southern border[.]” 82 Fed. Reg. 8,793, 8,794 (Jan. 25, 2017).
According to that executive order, the “wall” must be “a
contiguous, physical wall or other similarly secure,
contiguous, and impassable physical barrier.” Id. Pursuant to this mandate, in August and September of
2017, the DHS Secretary issued two waivers under
the IIRIRA’s section 102(c). See 82 Fed. Reg. 35,984,
35,984-85 (Aug. 2, 2017); 82 Fed. Reg. 42,829, 42,82931 (Sept. 12, 2017).9
8

Those waiver determinations all were made by former DHS
Secretary Michael Chertoff, in September of 2005, see 70 Fed.
Reg. 55,622, 55,622-23 (Sept. 22, 2005); January of 2007, see 72
Fed. Reg. 2,535, 2,535-36 (Jan. 19, 2007); October of 2007, see 72
Fed. Reg. 60,870, 60,870 (Oct. 26, 2007); and April of 2008, see 73
Fed. Reg. 19,077, 19,077-78 (Apr. 8, 2008); 73 Fed. Reg. 19,078,
19,078-80 (Apr. 8, 2008).
9
These waivers were subsequently challenged in the United
States District Court for the Southern District of California and
were eventually subject to litigation in the United States Court of
Appeals for the Ninth Circuit. See In re Border Infrastructure
Envtl. Litig., 915 F.3d 1213, 1221, 1226 (9th Cir. 2019) (finding
that the IIRIRA’s section 102(c)(2) did not bar the district court
or the court of appeals’ review of claims “challeng[ing] the scope
of the Secretary’s authority to build roads and walls under sections 102(a) and 102(b),” as opposed to “the scope of the waiver

App. 16
As relevant here, on January 22, 2018, DHS published in the Federal Register the Secretary’s determination that a specified 20-mile stretch of border in New
Mexico qualifies as “an area of high illegal entry” under
section 102(a) of the IIRIRA; that “[t]here is presently
a need to construct physical barriers and roads in the
vicinity of the border of the United States to deter illegal crossings in the project area”; and that waiver of
25 statutes “in their entirety,” including the ESA and
the NEPA, is “necessary” to “ensure the expeditious
construction of the barriers and roads in the project
area[.]” 83 Fed. Reg. 3,012, 3,013 (Jan. 22, 2018). According to Plaintiffs, the project area that is the subject
of the New Mexico Waiver “is located in the middle of
the internationally-renowned Chihuahuan Desert,
considered to be one of the world’s most biologically
diverse deserts due to the presence and abundance of
endemic species that exist nowhere else on earth.”
(Pls.’ Mem. at 23.) Plaintiffs also maintain that, in additional [sic] to several detrimental non-environmental impacts, “[t]he New Mexico Border Wall Project will
result in numerous negative impacts on the wildlife,
vegetation, and the sensitive biological habitats on and
near the proposed Project site.” (Id.; see also id. at 2325.)

authority under section 102(c)[,]” and holding that the border projects at issue were “authorized under section 102(a)’s broad grant
of authority, which is not limited by section 102(b)”).

App. 17
DHS announced the commencement of its work on
the New Mexico Border Wall Project on April 9, 2018.10
In a press release, U.S. Customs and Border Protection
clarified that, “[a]s part of the President’s Executive
Order 13767, and at the direction of the Department of
Homeland Secretary, construction for a border wall replacement in Santa Teresa with new bollard style wall
will begin on Monday, April 9[,]” and that “[c]onstruction is slated to run for approximately 390 days.”11 During the motions hearing this Court held in December
of 2018, Defendants’ counsel indicated that the New
Mexico Border Wall Project’s “barrier installation” was
completed in October of 2018, and that “the accompanying road” was “expected to be completed in January
[of 2019].” (Hr’g Tr., ECF No. 32, at 56:9-11.)12 DHS also
presently asserts that the agency consulted with “representatives from the Department of the Interior, U.S.
Fish & Wildlife Service [(‘USFWS’)], and Bureau of
Land Management [(‘BLM’)]” prior to the DHS Secretary’s determination that the New Mexico Waiver
should be issued (Defs.’ Mem. at 18), and that before
the April 2008 commencement of construction, DHS
consulted with “relevant Native American tribes and
the New Mexico State Historic Preservation Officer[,]”
10

See Santa Teresa Border Wall Replacement Project to
Begin, U.S. Customs and Border Protection (Apr. 9, 2018), https://
www.cbp.gov/newsroom/local-media-release/santa-teresa-borderwall-replacement-project-begin.
11
Id.
12
The parties have not updated the Court since the motions
hearing as to the status of the construction projects at issue in
this matter.

App. 18
as well as “two New Mexico state agencies, the local
county manager, USFWS, BLM, and the U.S. Army
Corps of Engineers” (id.).
C. Procedural History
Plaintiffs filed the instant lawsuit on March 22,
2018 (see Compl.), claiming that the DHS Secretary’s
invocation of waiver authority under the IIRIRA’s section 102(c) with respect to the New Mexico Border Wall
Project was ultra vires and therefore unlawful (see id.
¶¶ 64-72 (Count One); id. ¶¶ 73-80 (Count Two)), and
that the New Mexico Waiver violates three provisions
of the Constitution of the United States: the Take Care
Clause (see id. ¶¶ 81-85 (Count Three)); the NonDelegation and Separation of Powers Doctrine (see id.
¶¶ 86-94 (Count Four)); and the Presentment Clause
(see id. ¶¶ 95-100 (Count Five)). Plaintiffs’ complaint
claims that the Secretary lacked statutory authority to
issue the New Mexico Waiver—i.e., that the Secretary
acted in an ultra vires manner—because, in Plaintiffs’
view, section 102(c)’s waiver authority “is limited to the
specific border barriers and roads [that Congress] required to be constructed pursuant to IIRIRA Section
102(b)” (id. ¶ 67 (emphasis added)), yet DHS had already fulfilled section 102(b)’s construction requirements at the time that the New Mexico Waiver was
issued (see id. ¶ 70). Alternatively, Plaintiffs argue that
the Secretary impermissibly transcended the agency’s
statutory authority because DHS “failed to conduct necessary prerequisites for exercising the waiver authority

App. 19
for expedited construction as set forth in provision
IIRIRA Section 102(b)(1)(C).” (Id. ¶ 74.)
Plaintiffs’ complaint further claims that, by issuing the New Mexico Waiver, DHS has violated the Constitution’s venerated separation-of-powers principles.
First, insofar as the DHS Secretary’s issuance of the
New Mexico Waiver “failed to comply with the requirements and limitations of IIRIRA Section 102” (id.
¶ 85), Plaintiffs maintain that the decision to issue the
waiver violated the Take Care Clause of the United
States Constitution, which requires that the Executive
Branch “ ‘shall take Care that the Laws be faithfully
executed[.]’ ” (Id. ¶ 83 (quoting U.S. Const. art. II, § 3).)
Second, Plaintiffs assert that the IIRIRA’s section 102(c)
itself transgresses the constitutional non-delegation
doctrine, because the statute “delegates to the Executive Branch, namely the DHS Secretary, the legislative
power to waive the application of any Congressionallyenacted law to construction on the U.S.-Mexico border”
without “an intelligible general policy to guide [the
Secretary’s] decision-making.” (Id. ¶¶ 92, 93.) Third,
and finally, Plaintiffs argue that the IIRIRA’s section
102(c) violates the Presentment Clause, both on its
face and as applied to the circumstances of the instant
case, because the statute impermissibly “vests unilateral power in the DHS Secretary to waive the application of any laws in areas along the border for purposes
of building border walls without Congress passing a
law to void the specific laws at issue or limit their application, and presenting it to the President” (id. ¶ 98),
and because, with respect to the New Mexico Border

App. 20
Wall Project in particular, the Secretary “chose which
laws to waive and which laws to obey, without an act of
Congress specifying which particular law or set of laws
could be waived and without the presentation of said
Congressional act to the President” (id. ¶ 99).13
In addition to the complaint, Plaintiffs have also
filed a motion for summary judgment that restates and
reinforces the assertions that are made in their pleading. (See Pls.’ Mot. (filed on May 10, 2018); Pls.’ Mem.)
Defendants responded, on June 15, 2018, by filing a
motion to dismiss Plaintiffs’ complaint, or, in the alternative, for summary judgment. (See Defs.’ Mot.). In
their motion, Defendants argue, as a threshold matter,
that this Court lacks subject-matter jurisdiction to determine whether the New Mexico Waiver is ultra vires,
as Plaintiffs claim, because “Congress has expressly
withdrawn district court jurisdiction to review nonconstitutional challenges to the Secretary’s exercise of
waiver authority[.]” (Defs.’ Mem. at 21; see also id.
(quoting IIRIRA § 102(c)(2)(A)); id. at 19-26). Defendants also contend that Plaintiffs’ ultra vires claims fail
as a matter of law. (See, e.g., id. at 27 (asserting Plaintiffs have not “identif[ied] a ‘statutory right’ by which
Plaintiffs are entitled to vindication[,]” as valid ultra
vires claims allegedly require); see also id. at 28-42
(arguing that DHS did not violate any statutory
13

To remedy the ultra vires and constitutional claims identified in the complaint, Plaintiffs seek declaratory relief, and ask
this Court to “[s]et aside and vacate the New Mexico Waiver” and
to “[e]njoin DHS from implementing the New Mexico Border Wall
Project until and unless it complies with all laws that would apply
absent the unlawful waiver[.]” (Compl. at 30-31.)

App. 21
prohibition or requirement when it issued the New
Mexico Waiver). Defendants further insist that the
IIRIRA’s section 102(c) and the New Mexico Waiver
comport with the Constitution. (See id. at 42-50.)
This Court held a motions hearing on the parties’
cross-motions on December 18, 2018. (See Min. Entry
of Dec. 18, 2018.) During the hearing, Defendants represented, for the first time, that “the Department of
Homeland Security and [the DHS Secretary] had relied on both section 102(a) and 102(b) of the IIRIRA
when issuing the waiver at issue in this case” (Min. Order of Dec. 19, 2018 (emphasis added)), and the Court
subsequently ordered the parties to file supplemental
briefs (at Plaintiffs’ request) to address the potential
implications of this new revelation on the parties’ arguments (see id.). After the hearing, the Court also
acted to consolidate another matter—Center for Biological Diversity v. Nielsen, No. 18-cv-2396—with the
instant case. (See Min. Order of Jan. 9, 2019; see also
Resp. to Order to Show Cause, 18-cv-2396, ECF No. 9,
at 1 (agreeing that the Court “should consolidate” the
two cases because they “involve many of the same parties and both challenge [the DHS Secretary’s] invocation of Section 102 of [the IIRIRA] to waive dozens of
laws that would otherwise apply to the construction of
border wall projects” (footnotes omitted)).)14
14

The legal arguments are identical in the instant case and
18-cv-2396, but the facts vary: whereas the plaintiffs here challenge waivers regarding border construction in New Mexico, the
plaintiffs in 18-cv-2396 challenge waivers regarding border construction in Texas. (See Compl., 18-cv-2396, ECF No. 1, ¶ 1.) On

App. 22
The parties filed the aforementioned supplemental briefs by February 28, 2019. (See ECF Nos. 31,
33, 34.) Thus, the parties’ cross-motions are now ripe
for this Court’s review.

II.

LEGAL STANDARDS
A. Cross-Motions For Summary Judgment In
Cases Involving Ultra Vires Claims And
Constitutional Challenges To Agency Action

Federal Rule of Civil Procedure 56 requires a court
to grant summary judgment “if the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). However, in cases challenging
agency action, “[t]he entire case on review is [ordinarily] a question of law, and only a question of law[,]”
Marshall Cty. Health Care Auth. v. Shalala, 988 F.2d
1221, 1226 (D.C. Cir. 1993), and, therefore, the summary judgment standard functions slightly differently.
Cf. Henry v. Sec’y of Treasury, 266 F. Supp. 3d 80, 86
(D.D.C. 2017) (explaining that, in the context of the
February 4, 2019, Plaintiffs filed a motion for partial summary
judgment regarding the waivers at issue in 18-cv-2396. (See Pls.’
Partial Mot. for Summ. J. Regarding Tex. Waivers, ECF No. 30.)
Because the Court’s conclusions with respect to the cross-motions
in this Memorandum Opinion also apply to Plaintiffs’ partial motion relating to the Texas Waivers, the Court will not separately
address that motion in this Opinion. Moreover, consistent with
this Opinion, the partial motion for summary judgment (ECF No.
30) will be DENIED.

App. 23
APA, “the reviewing court generally . . . reviews the
[agency’s] decision as an appellate court addressing issues of law”).
Notably, “in the context of ultra vires and constitutional separation of powers claims, there are no questions of fact, because whether or not a statute or the
Constitution grants the [Executive Branch] the power
to act in a certain way is a pure question of law.” Am.
Fed. of Gov’t Emps., AFL-CIO v. Trump, 318 F. Supp. 3d
370, 394 (D.D.C. 2018), rev’d on other grounds, 929 F.3d
748 (D.C. Cir. 2019); see also, e.g., Chamber of Commerce of U.S. v. Reich, 74 F.3d 1322, 1332-39 (D.C. Cir.
1996) (conducting de novo review). “The same can be
said of any questions of interpretation that a federal
court may have to answer in parsing out the meaning
of any relevant statutes[.]” Am. Fed. of Gov’t Emps.,
AFL-CIO, 318 F. Supp. 3d at 394.
B. Defense Motions Styled As “Motions To
Dismiss, Or, In The Alternative, For Summary Judgment”
When a defendant moves for summary judgment
under Federal Rule of Civil Procedure 56 as an alternative to dismissal under Rule 12 (see, e.g., Defs.’ Mem.
at 50 (“Plaintiffs’ claims should be dismissed as a matter of law or, in the alternative, the Court should . . .
grant summary judgment to Defendants”)), “the decision regarding whether or not to treat a motion to dismiss as one for summary judgment is committed to the
sound discretion of the trial court[,] which means that

App. 24
this Court need not necessarily accede to [the defendants’] request regarding how its motion should be evaluated.” Ross v. U.S. Capitol Police, 195 F. Supp. 3d 180,
192 (D.D.C. 2016) (first alteration in original) (internal
quotation marks and citation omitted). Where, as here,
a defendant maintains that the case should be terminated either because the defendant is entitled to judgment as a matter of law under Rule 56, or because the
pleadings are insufficient to state a claim or to establish the court’s jurisdiction under Rule 12, the court
may review the parties’ arguments with respect to
both of those grounds to determine the extent to which
the motion can be sustained. See, e.g., Smith v. United
States, 121 F. Supp. 3d 112, 119-26 (D.D.C. 2015) (evaluating certain arguments under Federal Rule of Civil
Procedure 12(b)(6) and others under Federal Rule of
Civil Procedure 56, where defendants’ motion sought
either dismissal for failure to state a claim or summary
judgment). However, because such a motion presents
these alleged defects as alternative bases for terminating the action, the court may also opt to evaluate one
basis for termination of the action and not the other.
See, e.g., Jones v. Nat’l Council on Disability, 66
F. Supp. 3d 94, 104 n.8 (D.D.C. 2014); ViroPharma, Inc.
v. Hamburg, 916 F. Supp. 2d 76, 77, 83 (D.D.C. 2013);
cf. PDK Labs., Inc. v. DEA, 362 F.3d 786, 799 (D.C. Cir.
2004) (Roberts, J., concurring) (stating where there “is
a sufficient ground for deciding th[e] case . . . , the cardinal principle of judicial restraint—if it is not necessary to decide more, it is necessary not to decide
more—counsels us to go no further”).

App. 25
Notably, here, Defendants have maintained that
summary judgment in their favor is warranted as an
alternative to their argument that Plaintiffs’ complaint
must be dismissed prior to judgment, pursuant to either Federal Rule of Civil Procedure 12(b)(1) or Rule
12(b)(6). A defendant may move to dismiss a complaint
for lack of subject-matter jurisdiction under Federal
Rule of Civil Procedure 12(b)(1), and once such a motion has been filed, it is the plaintiff ’s burden to establish the court’s jurisdiction by a preponderance of the
evidence. See Delta Air Lines, Inc. v. Exp.-Imp. Bank of
U.S., 85 F. Supp. 3d 250, 259 (D.D.C. 2015). “[I]f the
plaintiff fails to do so, the court must dismiss the complaint[.]” Ross, 195 F. Supp. 3d at 191.
When considering a motion to dismiss under Rule
12(b)(1), a court must “treat the complaint’s factual allegations as true” and “grant plaintiffs the benefit of all
inferences that can be derived from the facts alleged.”
Delta Air Lines, 85 F. Supp. 3d at 259 (internal quotation marks, citation, and alteration omitted). However,
the “factual allegations in the complaint” receive “closer
scrutiny in resolving a 12(b)(1) motion than in resolving a 12(b)(6) motion for failure to state a claim.” Id.
(internal quotation marks and citation omitted). Furthermore, unlike in the Rule 12(b)(6) context, the Court
“may consider materials outside the pleadings” in resolving the Rule 12(b)(1) question. Id. (internal quotation marks and citation omitted).
A defendant may also move to dismiss a complaint
for failure to state a claim, pursuant to Rule 12(b)(6).
See Fed. R. Civ. P. 12(b)(6). When considering such a

App. 26
motion, a court must assess whether the complaint
contains “ ‘sufficient factual matter, accepted as true,
to state a claim to relief that is plausible on its face[,]’ ”
Harris v. D.C. Water & Sewer Auth., 791 F.3d 65, 68
(D.C. Cir. 2015) (quoting Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009)), i.e., whether the complaint’s allegations
are sufficient to permit a “ ‘reasonable inference that
the defendant is liable for the misconduct alleged,’ ”
Matrixx Initiatives, Inc. v. Siracusano, 563 U.S. 27, 46
(2011) (quoting Iqbal, 556 U.S. at 678). In this regard,
the “ ‘court must accept as true all of the allegations
contained in a complaint[,]’ ” but need not do the same
for legal conclusions. Harris, 791 F.3d at 68 (quoting
Iqbal, 556 U.S. at 678). “Accordingly, ‘threadbare recitals of the elements of a cause of action, supported by
mere conclusory statements, do not suffice’ ” to survive
a motion to dismiss under Rule 12(b)(6). Id. (alteration
omitted) (quoting Iqbal, 556 U.S. at 678).
Unlike Rule 12(b)(1), Rule 12(b)(6) “places th[e]
burden on the moving party” to show that the complaint is legally insufficient. Cohen v. Bd. of Trustees of
the Univ. of the Dist. of Columbia, 819 F.3d 476, 481
(D.C. Cir. 2016) (citing 5B Charles A. Wright & Arthur
R. Miller, Federal Practice and Procedure § 1357 (3d
ed. 2015)). And in contrast to a motion to dismiss
brought under Rule 12(b)(1), a court assessing whether
a complaint states a claim upon which relief can be
granted must limit its analysis to the four corners of
the complaint, as well as any “documents attached as
exhibits or incorporated by reference in the complaint,
or documents upon which the plaintiff ’s complaint

App. 27
necessarily relies[.]” Page v. Mancuso, 999 F. Supp. 2d
269, 275 (D.D.C. 2013) (internal quotation marks and
citations omitted).
III. ANALYSIS
Plaintiffs have brought two ultra vires claims (the
first and second claims for relief ) and three constitutional claims (the third, fourth, and fifth claims for relief ), each of which challenges DHS’s issuance of the
New Mexico Waiver, as explained above. For the reasons laid out below, this Court finds that Congress has
expressly precluded judicial review of non-constitutional claims that arise from DHS’s exercise of the
IIRIRA’s section 102(c) waiver authority, and Plaintiffs
have failed to allege facts that are sufficient to sustain
their constitutional claims as a matter of law. Thus,
Plaintiffs’ entire complaint must be DISMISSED.
A. Plaintiffs’ Ultra Vires Claims Cannot Be
Adjudicated In Federal Court
Plaintiffs’ primary contention is that, “[b]ecause
the scope of the IIRIRA Section 102(c) waiver provision
is limited to the border barriers and road requirements
specified by IIRIRA Section 102(b), the requirements
of which have already been fulfilled, the purported
waiver of . . . laws under the New Mexico Waiver is an
unlawful ultra vires act.” (Compl. ¶ 71.) In the alternative, Plaintiffs assert that, “by approving the waiver
prior to completing at least the prerequisite consultation mandated in Section 102(b)(1)(C),” the DHS

App. 28
Secretary’s “decision to issue the New Mexico Waiver
facially violates the requirements under IIRIRA Section 102 and is thus ultra vires because it is in excess
of the Secretary’s delegated powers[.]” (Id. ¶ 80.) Plaintiffs insist that these are legal claims that this Court
can, and must, adjudicate, given the “ ‘strong presumption that Congress intends judicial review of administrative action[.]’ ” (Pls.’ Opp’n to Defs.’ Mot. & Reply in
Supp. of Pls.’ Mot. (“Pls.’ Opp’n”), ECF No. 23, at 14
(quoting Traynor v. Turnage, 485 U.S. 535, 542 (1988)).)
But, unfortunately for Plaintiffs, the language of section 102(c)(2)(A) plainly evidences Congress’s intent to
preclude non-constitutional causes of action that assail
a DHS section 102(c) waiver determination, and Congress has also expressly deprived the federal courts of
jurisdiction over non-constitutional claims that challenge DHS’s section 102(c) waiver decisions. Thus,
Congress has made it abundantly clear that Plaintiffs’
ultra vires claims cannot proceed in federal court.
1. While judicial review of allegedly lawless
agency action is ordinarily presumed, clear
indicia of congressional intent can overcome that presumption
Courts have long recognized that an aggrieved
party can sue in federal court to challenge agency action as ultra vires, even when a statute does not specifically delineate that right. See Bowen v. Mich. Acad. of
Fam. Phys., 476 U.S. 667, 670 (1986) (“From the beginning our cases have established that judicial review of
a final agency action by an aggrieved person will not

App. 29
be cut off unless there is persuasive reason to believe
that such was the purpose of Congress.” (internal quotation marks, citation, and alteration omitted)).15 Moreover, as Plaintiffs here have recognized, there are cases
in which plaintiffs have been able to proceed in federal
court with respect to ultra vires claims even when Congress has precluded judicial review of agency action.
See, e.g., Aid Ass’n for Lutherans v. USPS, 321 F.3d
1166, 1172-73 (D.C. Cir. 2003); Railway Labor Execs.’
Ass’n v. Nat’l Mediation Bd., 29 F.3d 655, 662-63 (D.C.
Cir. 1994). In authorizing review of ultra vires claims
under such circumstances, courts appear to have relied
primarily on the well-established “strong presumption
that Congress did not mean to prohibit all judicial review[,]” Dart v. United States, 848 F.2d 217, 221 (D.C.
Cir. 1988) (emphasis added) (internal quotation marks
and citation omitted), as well as precedents that make
clear that “[j]udicial review is favored when an agency
is charged with acting beyond its authority[,]” id. (emphasis added); see also Trudeau v. Fed. Trade Comm’n,
456 F.3d 178, 189-90 (D.C. Cir. 2006); Aid Ass’n for
Lutherans, 321 F.3d at 227-28. In other words, even
when “Congress ha[s] expressed an unqualified intent
to shut off review,” an exception may still exist “on
15

“A challenge to agency action on the ground that it is ultra
vires requires a plaintiff to establish a patent violation of agency
authority[.]” DCH Reg’l Med. Ctr. v. Price, 257 F. Supp. 3d 91, 94
(D.D.C. 2017) (internal quotation marks and citation omitted); see
also Fla. Health Scis. Ctr., Inc. v. Sec. of Health & Human Servs.,
830 F.3d 515, 522 (D.C. Cir. 2016) (“A violation is patent if it is
obvious or apparent.” (internal quotation marks, citation, and alteration omitted)).

App. 30
grounds that the legislature would not be deemed to
have barred judicial comparison of agency action with
plain statutory commands unless such a ban was
clearly articulated.” Dart, 848 F.2d at 222 (internal
quotation marks and citation omitted).
Of course, the devil is in the details: each case involves a statute that must be interpreted to evaluate
the degree to which, via the express preclusion of jurisdiction or otherwise, Congress also intended to bar
even plausible claims of ultra vires agency action. No
less an authority than the United States Supreme
Court has reminded lower courts that “[t]he presumption favoring judicial review of administrative action is
just that—a presumption[,]” Block v. Cmty. Nutrition
Inst., 467 U.S. 340, 349 (1984), and that the grant of
jurisdiction under section 1331 of Title 28 of the United
States Code, which generally “confer[s] jurisdiction on
federal courts to review agency action,” Califano v.
Sanders, 430 U.S. 99, 105 (1977), is subject to “preclusion-of-review statutes created or retained by Congress,” id. Thus, while Plaintiffs are correct that there
exists “a judicial disinclination to infer that Congress
wished to insulate plain statutory violations from review[,]” Dart, 848 F.2d at 222 (internal quotation
marks and citation omitted)—and, indeed, it is presumed that Congress does not have such intention—
that presumption does not end the matter, because it
can be overcome by an unambiguous statutory provision that plainly precludes jurisdiction, or narrowly
restricts the available causes of action, or both. See
Block, 467 U.S. at 349 (explaining that the strong

App. 31
presumption in favor of judicial review “may be overcome by specific language or specific legislative history
that is a reliable indicator of congressional intent”).
Such congressional intent “may also be inferred from
contemporaneous judicial construction barring review
and the congressional acquiescence in it, . . . from the
collective import of legislative and judicial history behind a particular statute, . . . [or] from the statutory
scheme as a whole.” Id. (citations omitted).
As a practical matter, this all means that federal
courts “will normally disregard ‘basically lawless’
agency action only when clearly instructed to do so.”
Ralpho v. Bell, 569 F.2d 607, 623 (D.C. Cir. 1977) (emphasis added) (citation omitted); see also Dart, 848 F.2d
at 221 (“[O]nly upon a showing of clear and convincing
evidence of a contrary legislative intent should the
courts restrict access to judicial review[.]” (internal
quotation marks, citation, and alterations omitted)).
Thus, in the face of clear statutory language and other
indisputable indicia of Congress’s intent to prevent
federal courts from reviewing even ultra vires agency
action, it is not enough for a plaintiff to point to a statute that governs agency conduct and to argue merely
that Congress must have intended for its provisions to
be judicially enforced. As the D.C. Circuit has long recognized, the mere fact “[t]hat Congress has imposed
strictures [on agencies] does not, of course, prevent it
from shielding even the most patent deviation from the
statutory scheme from judicial redress where the Constitution is in no wise implicated.” Ralpho, 569 F.2d at

App. 32
622 (citing Switchmen’s Union v. Nat’l Mediation Bd.,
320 U.S. 297, 301 (1943)).
2. Section 102(c)(2) of the IIRIRA strips federal district courts of the power to review
any and all non-constitutional claims that
arise from the Secretary’s exercise of section 102(c)’s waiver authority
With respect to Plaintiffs’ ability to bring, and this
Court’s power to consider, the ultra vires claims at issue here, the Court need look no further than the “specific language[,]” Block, 467 U.S. at 349, of the IIRIRA,
and, in particular, the text of section 102(c)(2)(A). For
the following reasons, this statutory provision plainly
compels the conclusion that there is both a cause-ofaction restriction and a jurisdictional bar with respect
to this Court’s consideration of non-constitutional challenges to the DHS Secretary’s actions undertaken pursuant to section 102(c)(1), including the ultra vires
claims that Plaintiffs are asserting. Cf. Caminetti v.
United States, 242 U.S. 470, 485 (1917) (“It is elementary that the meaning of a statute must, in the first
instance, be sought in the language in which the act is
framed, and if that is plain, and if the law is within the
constitutional authority of the lawmaking body which
passed it, the sole function of the courts is to enforce it
according to its terms.” (citations omitted)); United
States v. Cordova, 806 F.3d 1085, 1098 (D.C. Cir. 2015)
(“As always, we begin with the text of the statute.” (internal quotation marks and citation omitted)).

App. 33
The full text of section 102(c)(2)(A) of the IIRIRA
reads as follows:
[t]he district courts of the United States shall
have exclusive jurisdiction to hear all causes
or claims arising from any action undertaken,
or any decision made, by the Secretary of Homeland Security pursuant to [section 102(c)(1)]. A
cause of action or claim may only be brought
alleging a violation of the Constitution of the
United States. The court shall not have jurisdiction to hear any claim not specified in this
subparagraph.
IIRIRA § 102(c)(2)(A).16 By its plain terms, this statutory provision applies to the instant circumstances.
First of all, all of Plaintiffs’ claims unquestionably
“aris[e] from an[ ] action undertaken, or a[ ] decision
made, by the Secretary of Homeland Security pursuant to [section 102(c)(1)][,]” id., which is section 102’s
waiver provision (see, e.g., Compl. ¶ 1 (“In this action,
Plaintiffs . . . challenge the issuance of a waiver on
January 22, 2018 by [the DHS Secretary] . . . that purports to exempt construction of approximately twenty
miles of border walls and associated infrastructure in
16

Section 102(c)(2)(B) further requires that “[a]ny cause or
claim brought pursuant to [section 102(c)(2)(A)] shall be filed not
later than 60 days after the date of the action or decision made by
the Secretary of Homeland Security. A claim shall be barred unless it is filed within the time specified.” IIRIRA § 102(c)(2)(B).
And Section 102(c)(2)(C) limits appellate review: “An interlocutory or final judgment, decree, or order of the district court may
be reviewed only upon petition for a writ of certiorari to the Supreme Court of the United States.” Id. § 102(c)(2)(C). Neither of
these additional provisions is at issue here.

App. 34
southern New Mexico [ ] from compliance with the
[NEPA], the [ESA], and numerous other statutory requirements.”); id. ¶ 2 (“In issuing the New Mexico
Waiver, Secretary Niels[e]n invoked the authority purportedly contained in Section 102 of [IIRIRA]. . . .
[T]he New Mexico Waiver is ultra vires and unlawful
because it exceeds the limited grant of authority for
such waivers contained in IIRIRA Section 102.”); id.
¶ 4 (“[B]ecause the New Mexico Border Wall Project
does not fall within the scope of projects mandated by
Section 102, . . . the waiver authority under Section
102(c) is inapplicable to the New Mexico Border Wall
Project.”)). This means that, per the language of section
102(c)(2)(A), “[t]he district courts of the United States
. . . have exclusive jurisdiction to hear” Plaintiffs’ claims.
IIRIRA § 102(C)(2)(A).
Next, the IIRIRA expressly addresses both the
ability of a plaintiff to bring a cause of action or claim
concerning the Secretary’s exercise of that waiver authority and the power of the federal district courts to
review any such claims—and it restricts both, in no uncertain terms. In rapid succession, section 102(c)(2)(A)
provides that “[a] cause of action or claim may only be
brought alleging a violation of the Constitution of the
United States[,]” id. (emphasis added), and then states
that “[t]he court shall not have jurisdiction to hear
any claim not specified in this subparagraph[,]” id.
(emphasis added). Thus, Congress has not only expressly restricted a plaintiff ’s right to bring any nonconstitutional claim that challenges a DHS waiver
determination, but has also limited a court’s authority

App. 35
to consider any challenge other than those alleging
constitutional violations. Indeed, the plain language of
the statute leaves no doubt that, except for review of
alleged violations of the Constitution, Congress intended to preclude completely judicial review of agency
actions taken, or decisions made, pursuant to section
102’s waiver provision, including the contention that a
particular waiver decision is not authorized by statute.
See In re Border Infrastructure Envtl. Litig., 915 F.3d
1213, 1221 (9th Cir. 2019) (explaining that the jurisdictional bar applies to ultra vires claims that challenge
DHS waivers on the grounds that “the waivers themselves were not authorized by the Secretary’s authority
under section 102(c)(1)”); (see also Compl. ¶ 72 (asserting that the DHS Secretary’s “purported waiver of laws
under the New Mexico Waiver is an unlawful ultra
vires act” because “the New Mexico Border Wall Project
is not subject to the scope of the IIRIRA Section 102(c)
waiver authority”).)
Given the abundantly clear and specific language
that Congress used in the IIRIRA’s section 102(c)(2)(A),
see Block, 467 U.S. at 349, which plainly blocks nonconstitutional claims by precluding such causes of action and also stripping federal courts of the power to
consider such claims, it is not necessary for the Court
to delve into the IIRIRA’s legislative history to determine Congress’s intent. See Caminetti, 242 U.S. at 485.
But even a cursory review of the IIRIRA’s legislative
pedigree supports this Court’s conclusions.
As mentioned above, the Conference Report pertaining to the 2005 amendments to the IIRIRA’s section

App. 36
102, which added the judicial review provision (see
supra Part I.A.2), explains that, despite the Attorney
General’s then-existing ability to waive the ESA and
the NEPA, “[c]ontinued delays caused by litigation
have demonstrated the need for additional waiver authority with respect to other laws that might impede
the expeditious construction of security infrastructure
along the border[.]” H.R. Rep. No. 109-72, at 171.17
Therefore, according to the Conference Report, it was
the vexing litigation delays that motivated Congress to
amend section 102 such that it now authorizes the
waiver of “all laws that [the DHS Secretary] determines, in his or her sole discretion, are necessary to
ensure the expeditious construction of the border barriers[,]” and also “prohibit[s] judicial review of a waiver
decision or action by the Secretary[.]” Id. The Conference Report further states that Congress “bar[red]
judicially ordered compensatory, declaratory, or injunctive, equitable, or any other relief or other remedy for
damage alleged to result from any such decision or action[,]” and “provided federal judicial review [only] for
claims alleging that the actions or decisions of the Secretary violate the United States Constitution.” Id. at
171, 172. Thus, Congress’s unmistakable “intent [was]
to ensure that judicial review of actions or decisions of
the Secretary not delay the expeditious construction of

17

Recall that Congress also transferred the authority contained in section 102(c)(1) from the Attorney General to the DHS
Secretary as part of the 2005 amendments to IIRIRA. (See supra
note 5.)

App. 37
border security infrastructure, thereby defeating the
purpose of the Secretary’s waiver.” Id. at 172.
Accordingly, both the statutory language of section
102(c)(2)(A), which imposes restrictions on judicial review of the DHS Secretary’s actions taken pursuant to
section 102(c)(1) in two different ways, and the legislative history of the enactment of those restrictions,
make crystal clear that Congress intended to eliminate
litigation that would “delay the expeditious construction of border security infrastructure[,]” to the fullest
extent possible, i.e., to the extent constitutionally allowed. Id.
3. Plaintiffs’ efforts to contradict the clear
conclusion that their ultra vires claims cannot proceed are not persuasive
Facing an indisputable pattern of congressional
actions and statements that clearly and convincingly
establish Congress’s intent to preclude litigation over
the DHS Secretary’s waiver authority, Plaintiffs have
cleverly crafted an “unlawful conduct” loophole in section 102(c)(2)(A)’s text where one does not exist. First, they
maintain that “by its plain terms,” section 102(c)(2)(A)
“simply precludes statutory review of ‘any action undertaken, or any decision made, by the [DHS Secretary] pursuant to [section 102(c)(1)][,]’ ” and, then,
Plaintiffs assert that “the [New Mexico Waiver] was
not an action lawfully made ‘pursuant to’ the circumspect waiver authority of § 102(c)(1).” (Pls.’ Opp’n at 14
(emphasis in original) (quoting IIRIRA § 102(c)(2)(A));

App. 38
see also Pls.’ Mem. at 43 (“Plaintiffs’ claim here is that
the New Mexico Waiver was not properly issued ‘pursuant to’ IIRIRA § 102(c)(1).” (emphasis in original)).)
This reading is designed to persuade the Court that
Congress “simply” intended to preclude judicial review
of legal claims concerning lawful exercises of the DHS
Secretary’s waiver authority. (See, e.g., Pls.’ Opp’n at 14
(asserting that “the Waiver was not an action lawfully
made ‘pursuant to’ the circumspect waiver authority of
§ 102(c)(1)” (emphasis in original)).) But the words
“lawfully made” appear nowhere in the relevant statutory text. See IIRIRA § 102(c)(2)(A) (limiting judicial
review of “any action undertaken, or any decision made
. . . pursuant to paragraph (1)” (emphasis added)). And,
of course, whether or not the New Mexico Waiver was
lawful is precisely the contention that this Court would
be required to decide if it does, indeed, have the power
to review Plaintiffs’ ultra vires claims.
Thus, Plaintiffs’ interpretation of the reach of section 102(c)(2)(A)’s judicial review language assumes
the answer to the very question that has to be decided,
in a manner that is entirely circular. That is, Plaintiffs
repeatedly maintain that because the statute precludes only the exercise of jurisdiction to consider
waivers that have been lawfully issued, Congress did
not intend to bar the exercise of this Court’s jurisdiction to consider whether the New Mexico Waiver is
lawful. (See, e.g, Pls.’ Mem. at 43 (“Plaintiffs do not
dispute that Congress has limited judicial review of
non-constitutional claims regarding a waiver properly
issued pursuant to IIRIRA § 102(c)(1), as articulated in

App. 39
§ 102(c)(2),” but “Plaintiffs’ claim here is that the New
Mexico Waiver was not properly issued ‘pursuant to’
IIRIRA §102(c)(1). Accordingly, the ultra vires claim is
not subject to § 102(c)(2)’s judicial review restrictions.”
(emphasis in original)).) In other words, Plaintiffs’ core
contention is that it is the unlawful nature of the DHS
Secretary’s section 102(c) waiver that allows this Court
to proceed to determine the lawfulness of the DHS Secretary’s waiver despite the jurisdictional bar, because
the jurisdictional bar applies only to challenges to lawful waivers. And Plaintiffs further insist that any other
conclusion is “untenable” because “DHS would not only
hold unfettered discretion to take action under § 102,
but would also have unreviewable discretion to determine that any action it takes falls within the section’s
delegated authority.” (Pls.’ Mem. at 44-45.)
Unfortunately for Plaintiffs, it is their argument,
and not a plain reading of section 102(c)(2)(A), that
leads to a “tautological result[.]” (Id. at 44.) Rather,
with respect to the threshold questions of whether
Plaintiffs’ ultra vires claims are cognizable under the
IIRIRA and whether this Court has subject-matter
jurisdiction to consider Plaintiffs’ claims, this Court
must evaluate Congress’s intent in light of the language of the statute. And as explained above, in this
Court’s view, Congress has made it abundantly clear
that claims that challenge the propriety or lawfulness
of the Secretary’s conduct with respect to the exercise
of section 102(c)’s waiver authority will not suffice; only
a claim that the DHS waiver at issue is unconstitutional will do. Therefore, plaintiffs cannot press ultra

App. 40
vires claims in federal court, nor do federal courts have
jurisdiction to consider such claims, simply and solely
because those claims are not constitutional challenges.
To be sure, “[s]uch a conclusion undermines the
‘inherent power of the federal courts to reestablish
the [non-constitutional] limits on executive authority
through judicial review’ ” (id. at 45 (quoting Adamski
v. McHugh, 304 F. Supp. 3d 227, 237 (D.D.C. 2015))),
which makes it entirely understandable that Plaintiffs
are reluctant to accept that Congress would have intended to permit a federal agency to flout its statutory
directives. But, as noted previously, Congress has this
right, so long as “the Constitution is in no wise implicated,” Ralpho, 569 F.2d at 622, and this Court cannot
construe the IIRIRA to provide it with review powers
that Congress has plainly precluded. In other words,
however rational Plaintiffs’ concerns may be, such matters must be taken up with Congress. Here, Plaintiffs
cannot reasonably assert that Congress must have
meant something different than what its statute
plainly says.
It is also clear to this Court that Plaintiffs’ reasoning with respect to how the Court’s subject-matter
jurisdiction is to be evaluated under the instant circumstances cannot be sustained. As noted previously,
Plaintiffs’ primary contention is, in essence, that Congress intended for section 102(c)(2)(A) to preclude only
judicial review of non-meritorious non-constitutional
claims regarding DHS waivers—i.e., that only challenges to lawful waiver determinations by the Secretary are barred. (See Pls. Opp’n at 14; see also Pls.

App. 41
Mem. at 43 (“Plaintiffs do not dispute that Congress
has limited judicial review of non-constitutional claims
regarding a waiver properly issued pursuant to IIRIRA
§ 102(c)(1)[.]” (emphasis omitted)).) But whether or not
a federal court has the power to consider a plaintiff ’s
claim does not, and cannot, depend upon the court’s
deciding, as a threshold matter, that the plaintiff ’s
claim is a meritorious one. See Cause of Action Inst. v.
IRS, No. 16-cv-2354, 2019 WL 3225751, at *8-9 (D.D.C.
July 17, 2019). This Court recently rejected this same
reasoning in a markedly different context, see id., and
Plaintiffs’ version of that same argument is no more
persuasive.
Plaintiffs’ attempts to distinguish non-meritorious non-constitutional challenges to DHS waivers (i.e.,
challenges to section 102(c) waivers that were lawfully
issued) from those non-constitutional legal claims that
have merit (i.e., challenges to section 102(c) waivers
that were not lawfully issued) is also flatly inconsistent
with the statutory text, insofar as Congress has made
no effort whatsoever to suggest that it intended for
only non-meritorious non-constitutional claims to be
barred by section 102(c)(2)(A). To the contrary, in that
provision, Congress states plainly that “only” constitutional “causes or claims” are allowed, and that federal
courts do have not jurisdiction to determine the merits
of any non-constitutional claims, IIRIRA § 102(c)(2)(A)
(emphasis added); there is no exception provided for
potentially valid ones.
Finally, this Court notes that the mechanics of
section 102(c)(2)(A) are such that even if the phrase

App. 42
“pursuant to” is read to mean “lawfully pursuant to,”
as Plaintiffs argue, that interpretation would, at most,
indicate that Plaintiffs’ ultra vires claims are viable
causes of action—it says nothing about the distinct issue of this Court’s power to consider and resolve such
claims. As explained above, section 102(c)(2) not only
establishes that the only “cause[s] of action or “claim[s]”
that can be brought to challenge a section 102(c)(1)
waiver are those that “alleg[e] a violation of the Constitution of the United States,” but it also states that
“[t]he court shall not have jurisdiction to hear any
claim not specified in this subparagraph.” Id. (emphasis added). Congress certainly could have referenced
subparagraph (1) with respect to this language, as it
did when addressing the viable causes of action or
claims—e.g., by stating that the district courts’ jurisdiction does not extend to “causes or claims arising
from any action undertaken, or any decision made, by
the Secretary of Homeland Security pursuant to paragraph (1) [section 102(c)(1)][,]” IIRIRA § 102(c)(2)(A)—
and, if it had done so, perhaps Plaintiffs could reasonably contend that its “lawfully pursuant to” reading
applies and permits district courts to retain jurisdiction to address unlawful waivers. But, instead, the last
sentence of section 102(c)(2)(A) strips the Court of
jurisdiction over “any claim not specified in this subparagraph[,]” id., and the sole claims “specified in . . .
subparagraph” (c)(2) are those that “alleg[e] a violation
of the Constitution of the United States[,]” id. Therefore, even if Plaintiffs were correct that ultra vires
causes of action or claims are cognizable where a plaintiff challenges the DHS Secretary’s alleged waiver as

App. 43
unlawful, given the language of the statute, this Court
still would “not have jurisdiction” to entertain such
claims. Id.
*

*

*

In sum, this Court finds that section 102(c)(2)(A)
plainly and unequivocally expresses Congress’s intent
with respect to restricting judicial review of legal challenges to section 102(c)(1) waiver determinations, in a
manner that overcomes even the strong presumption
that Congress ordinarily intends for agency actions to
be subject to review by the federal courts. Consistent
with its desire “to ensure that judicial review . . . not
delay the expeditious construction of border security
infrastructure,” H.R. Rep. No. 109-72, at 172, Congress
has drafted section 102(c)(2)(A) to lead inexorably to
the conclusion that there is neither a viable cause of
action in federal court concerning section 102(c)(1)
waiver determinations, nor federal court jurisdiction to
review any such challenge, unless the claim alleges
a violation of the United States Constitution. Consequently, this Court cannot, and will not, address the
merits of Plaintiffs’ non-constitutional contentions
that the New Mexico Waiver “exceeds the limited grant
of authority for such waivers contained in IIRIRA Section 102[(c)(1)]” (Compl. ¶ 2), or that DHS acted unlawfully because it failed to satisfy the consultation
prerequisite set forth in section 102(b)(1)(C) before the
New Mexico Waiver issued. Instead, the Court agrees
with DHS that, even if Plaintiffs claims were valid, by

App. 44
virtue of section 102(c)(2)(A), these non-constitutional
challenges must be dismissed.18

18

As it turns out, the supplemental briefing that the parties
submitted on the impact of the DHS Secretary’s sudden invocation of IIRIRA section 102(b), in addition to 102(a), as the agency’s
authority for undertaking the New Mexico Border Wall Project
has no bearing whatsoever on the Court’s analysis. (See supra
Part I.C.) Regardless of whether DHS based its decision to commence the New Mexico construction project pursuant to section
102(a) or 102(b), Plaintiffs’ ultra vires claims remain substantively the same—i.e., that the Secretary acted outside his statutory authority because the New Mexico project does not fall within
the 700 miles of construction specifically outlined in section
102(b)—and, more importantly, the Court’s analysis of whether
or not it has jurisdiction to consider such claims is entirely unaffected. (See Pls.’ Suppl. Br., ECF No. 31, at 18-27; Defs.’ Suppl.
Br., ECF No. 33, at 9-22.)
In addition, while Defendants do not distinguish between
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6) as the basis
for dismissal, the Court has concluded that Plaintiffs’ claims are
subject to dismissal under both Rules. That is, given the plain
language of section 102(c)(2)(A), Plaintiffs have failed to establish
this Court’s subject-matter jurisdiction, warranting dismissal under Rule 12(b)(1) for “lack of subject-matter jurisdiction[,]” Fed.
R. Civ. P. 12(b)(1), and Plaintiffs have also failed to establish that
there exists a cause of action by which they can bring these
claims, warranting dismissal under Rule 12(b)(6) for “failure to
state a claim upon which relief can be granted[,]” Fed. R. Civ. P.
12(b)(6); see also Eagle Trust Fund v. USPS, 365 F. Supp. 3d 57,
63 (D.D.C. 2019) (“[A] plaintiff who fails to show that the law authorizes him to bring his lawsuit fails to state a claim upon which
relief can be granted.” (citations omitted)).

App. 45
B. Plaintiffs Have Failed To State Viable
Constitutional Claims
The IIRIRA’s judicial review provision indisputably preserves this Court’s authority to review a legal
claim that “an[ ] action undertaken, or a[ ] decision
made, by the Secretary of Homeland Security” with respect to the waiver of legal requirements under section
102(c)(1) violates the Constitution. IIRIRA § 102(c)(2)(A).
Plaintiffs here assert generally that the IIRIRA’s section 102(c)(1) waiver authority is “unconstitutional because it unlawfully vests Congress’s lawmaking powers
in the Executive Branch” (Pls.’ Mem. at 45), and they
maintain, in particular, that if section 102(c)(1) is interpreted to authorize waivers for border construction
projects beyond those projects that are specifically delineated in section 102(b), then section 102(c)(1) violates the Presentment Clause (see id. at 45-48); the
constitutional non-delegation doctrine (see id. at 4852); and the Take Care Clause (see id. at 52-54). Plaintiffs further insist that DHS must have relied on this
unconstitutional interpretation of the agency’s section
102(c)(1) waiver authority in order to issue the New
Mexico Waiver, because the [sic] “the reinforced fencing
along . . . 700 miles of the southwest border” that is
outlined in section 102(b) had already been completed
when the New Mexico Waiver issued. (Pls.’ Mem. at 31
(quoting IIRIRA § 102(b)(1)(A)).)
The first potential impediment to the advancement of Plaintiffs’ constitutional claims arose during
this Court’s motions hearing, when Defendants suddenly asserted, for the first time, that the New Mexico

App. 46
Waiver was issued pursuant to the terms of section
102(b) of the IIRIRA (which authorizes the construction of “at least 700 miles” of reinforced fencing along
the southwest border, IIRIRA § 102(b)), and not in spite
of that provision, as Plaintiffs had maintained (see
Hr’g Tr. at 77:13-15). A round of supplemental briefing
ensued, as mentioned above (see supra Part I.C.), with
Plaintiffs contending that “DHS in fact did not invoke
§ 102(b) in the Waiver notice” and instead relied solely
on section 102(a) with respect to the New Mexico
Waiver (Pls.’ Suppl. Br., ECF No. 31, at 8 (emphasis in
original)), while DHS asserted that “[t]he Secretary relied both on the general mandate set out in § 102(a) . . .
and the specific call in § 102(b)(1) for additional infrastructure needed to gain operational control of the
southwest border” (Defs.’ Suppl. Br., ECF No. 33, at 7).
As a preliminary matter, this Court finds that any
distinction between, on the one hand, the DHS Secretary’s exercise of section 102(c)(1) waiver authority as
applied to construction projects generally authorized
under the IIRIRA’s section 102(a), and, on the other,
the invocation of section 102(c)(1) with respect to construction authorized under a differently interpreted
section 102(b) that does not limit the DHS Secretary
to only 700 miles of construction, makes no difference
with respect to the constitutional arguments that
Plaintiffs have pressed here.19 Either way, the Court
19

Even Plaintiffs appear to admit that, regardless of whether
DHS based its decision to commence the New Mexico construction
project on section 102(a) or 102(b), their constitutional claims are
unaltered. (See Pls.’ Suppl. Br. at 11 (“Defendants’ new position—

App. 47
concludes that section 102(c)(1) sufficiently limits DHS’s
authority so as not to run afoul of the Constitution in
the manner that Plaintiffs allege.
1. The constitutional limits on Congress’s
authority to delegate authority to the Executive Branch are well established
The Supreme Court has long recognized that
“[t]he Constitution sought to divide the delegated powers of the new federal government into three defined
categories, legislative, executive and judicial, to assure,
as nearly as possible, that each Branch of government
would confine itself to its assigned responsibility.” INS
v. Chadha, 462 U.S. 919, 951 (1983). This hallowed division is reinforced by various constitutional provisions that delineate requirements for each branch in
carrying out its duties, in order to maintain that separation of powers. Cf. id. at 957-58 (“To preserve those
checks, and maintain the separation of powers, the
carefully defined limits on the power of each Branch
must not be eroded.”). The Presentment Clause requires,
that the authority to issue the New Mexico Waiver emanates not
just from § 102(a) but also § 102(b)—only fortifies those constitutional concerns. Plainly, it would mean that even in § 102(b), Congress provided absolutely no limits on Executive action, but
instead . . . granted the DHS Secretary a carte blanche to waive
any law [he] deems an impediment to any project [he] decides to
undertake anywhere in the vicinity of the southwest border.”).)
Thus, this Court need only address the core of Plaintiffs’ constitutional argument: that section 102(c)(1)’s waiver authority, unbounded by the specific projects outlined in section 102(b), is an
overly broad grant of authority from Congress to the Executive
Branch.

App. 48
for example, that “[e]very Bill which shall have passed
the House of Representatives and the Senate, shall, before it become a Law, be presented to the President of
the United States[.]” U.S. Const. art. I, § 7, cl. 2. Such
requirements “were intended to erect enduring checks
on each Branch and to protect the people from the improvident exercise of power by mandating certain prescribed steps.” Chadha, 462 U.S. at 957. Similarly,
“repeal of statutes, no less than enactment, must conform with Art[icle] I[,]” id. at 954, and “[t]here is no
provision in the Constitution that authorizes the President to enact, to amend, or to repeal statutes[,]” Clinton v. City of New York, 524 U.S. 417, 438 (1998).
“The nondelegation doctrine is [also] rooted in the
principle of separation of powers that underlies our tripartite system of Government.” Mistretta v. United
States, 488 U.S. 361, 371 (1989). The Supreme Court
explains that doctrine this way: because “[t]he Constitution provides that ‘all legislative Powers herein
granted shall be vested in a Congress of the United
States,’ and we long have insisted that ‘the integrity
and maintenance of the system of government ordained by the Constitution’ mandate that Congress
generally cannot delegate its legislative power to another Branch.” Id. at 371-72 (quoting U.S. Const. art. I,
§ 1; Marshall Field & Co. v. Clark, 143 U.S. 649, 692
(1892)). But Congress can confer its powers within limits; specifically, “[s]o long as Congress shall lay down
by legislative act an intelligible principle to which the
person or body authorized to exercise the delegated authority is directed to conform, such legislative action is

App. 49
not a forbidden delegation of legislative power.” Id. at
372 (internal quotation marks, citation, and alteration
omitted). This means that a congressional delegation
of power to the Executive Branch is “constitutionally
sufficient if Congress clearly delineates the general
policy, the public agency which is to apply it, and the
boundaries of this delegated authority.” Id. at 372-73
(internal quotation marks and citation omitted); see
also Mich. Gambling Opp’n v. Kempthorne, 525 F.3d 23,
30 (D.C. Cir. 2008); Milk Indus. Found. v. Glickman,
132 F.3d 1467, 1475 (D.C. Cir. 1998).
Finally, separation-of-powers principles also drive
evaluations of claims brought under the Constitution’s
Take Care Clause, U.S. Const. art. II, § 3, because such
analysis focuses specifically on the President’s authority in relation to Congress’s. See Youngstown Sheet &
Tube Co. v. Sawyer, 343 U.S. 579, 587 (1952). “In the
framework of our Constitution, the President’s power
to see that the laws are faithfully executed refutes the
idea that he is to be a lawmaker.” Id.; see also id. (“The
Constitution limits [the President’s] functions in the
lawmaking process to the recommending of laws he
thinks wise and the vetoing of laws he thinks bad[,]
[a]nd the Constitution is neither silent nor equivocal
about who shall make laws which the President is to
execute.”). Thus, the Framers made clear that, far from
creating laws that bind the people of the United States,
the President “shall take care that the laws be faithfully executed.” U.S. Const. art. II, § 3 (emphasis added);
see also Myers v. United States, 272 U.S. 52, 117 (1926)
(concluding that the Take Care Clause applies to the

App. 50
entire Executive Branch, rather than the President
alone, because, “[a]s [the President] is charged specifically to take care that [the laws] be faithfully executed,
the reasonable implication, even in the absence of express words, was that as part of his executive power he
should select those who were to act for him under his
direction in the execution of the laws”).
These separation-of-powers principles are the
bedrock of many courts’ analyses with respect to constitutional challenges to a federal statute that authorizes broad discretionary decision making by executive
branch officials. However, constitutional claims are
rarely successful in this context, because courts have
construed the circumstances in which congressional
action conferring authority to an executive agency
transgresses the Constitution’s separation-of-powers
limits quite narrowly. See, e.g., Mistretta, 488 U.S. at
373 (noting that the Supreme Court has upheld “without deviation, Congress’ ability to delegate power under broad standards”); Arpaio v. Obama, 27 F. Supp. 3d
185, 210 n.14 (D.D.C. 2014) (“[A] finding of excessive
delegation of authority is extremely rare.”). As relevant
here, by this Court’s count, prior plaintiffs have raised
Presentment Clause, non-delegation doctrine, and
Take Care Clause claims concerning the government’s
waiver of laws under the IIRIRA’s section 102(c)(1)
three times in cases in which published opinions have
issued, see In re Border Infrastructure Envtl. Litig., 284
F. Supp. 3d 1092 (S.D. Cal. 2018); Save Our Heritage
Org. v. Gonzales, 533 F. Supp. 2d 58 (D.D.C. 2008); Defs.
of Wildlife v. Chertoff, 527 F. Supp. 2d 119 (D.D.C.

App. 51
2007)—and none has succeeded. For the reasons that
follow, the instant case is no exception.
2. A persuasive prior opinion squarely rejects
Plaintiffs’ separation-of-powers claims in
a nearly identical context, and this Court
sees no reason to reach a different conclusion
In 2007, two animal welfare and environmental
protection organizations filed a lawsuit in this district
“alleg[ing] that the Secretary of Homeland Security’s
waiver of numerous federal environmental laws under
section 102 of [the IIRIRA] is unconstitutional.” Defs.
of Wildlife v. Chertoff, 527 F. Supp. 2d 119, 120-21
(D.D.C. 2007). The legal action concerned the DHS
Secretary’s invocation of his authority under section
102(c)(1) of the IIRIRA to waive the NEPA and various
other laws with respect to a border construction project
in Arizona. See id. at 121-22. The plaintiffs alleged
that, when invoked in such a manner, the IIRIRA’s section 102(c) violates the Presentment Clause, “because
it provides the DHS Secretary with a roving commission to repeal, in his sole discretion, any law in all 50
titles of the United States Code that he concludes
might impede construction of a border wall[,]” id. at
123 (internal quotation marks and citation omitted),
and they further maintained that “the waiver authority violates fundamental separation of powers principles because it is an unconstitutional delegation of
legislative power to the Executive Branch[,]” id. at 126.

App. 52
Notably, with respect to the Presentment Clause
claim, the Defenders of Wildlife plaintiffs asserted that
“the power granted by section 102 of the [IIRIRA] to
the Secretary of DHS to waive the applicability of any
law that would otherwise apply to border wall and
fence construction projects is unmistakably the power
partially to repeal or amend such laws,” because “[t]he
laws waived by the Secretary’s federal register notice
are repealed . . . to the extent that they otherwise
would have applied to wall and road construction[.]”
Id. at 124 (internal quotation marks, citations, and
alterations omitted). But the court found such arguments “unavailing,” id. (Huvelle, J.) (citing Sierra Club
v. Ashcroft, Civ. No. 04-272, 2005 U.S. Dist. LEXIS
44244, *21 (S.D. Cal. Dec. 12, 2005)), because the
IIRIRA’s waiver provision did not bear the hallmarks
of a partial repeal or amendment of a statute in violation of the Presentment Clause that the Supreme
Court identified with respect to the Line Item Veto Act
in Clinton v. City of New York, 524 U.S. 417 (1998).
As Judge Huvelle explained, “[i]n Clinton, the Supreme Court struck down the Line Item Veto Act of
1996, which gave the President the authority to ‘cancel’
certain federal spending items that had been passed
by Congress, because the Court found that the Act—
‘[i]n both legal and practical effect’—allowed the President to amend Acts of Congress by repealing portions
of them.” Id. at 123 (alteration in original). Judge Huvelle reasoned that “[i]t was ‘critical’ to the Clinton
Court’s decision that the Line Item Veto Act essentially
‘gave the President the unilateral power to change the

App. 53
text of duly enacted statutes[,]’ ” id. (alterations omitted) (quoting Clinton, 524 U.S. at 437, 447), and that
“[t]he line items cancelled by the President would no
longer have any ‘legal force or effect’ under any circumstance[,]” id. (quoting Clinton, 524 U.S. at 437, 464). By
contrast, under the IIRIRA’s waiver provision, “[t]he
Secretary has no authority to alter the text of any statute, repeal any law, or cancel any statutory provision,
in whole or in part.” Id. And, as Judge Huvelle pointed
out, to assert otherwise would effectively transform
any Executive Branch waiver (the U.S. Code contains
“myriad examples” of such) into a violation of Article I,
“no matter how limited in scope.” Id. at 124-25.
In Defenders of Wildlife, Judge Huvelle further
distinguished section 102(c) from the Line Item Veto
Act on the grounds that the latter “authorized the
President ‘to effect the repeal of laws for his own policy
reasons,’ thereby ‘rejecting the policy judgment made
by Congress and relying on his own policy judgment.’ ”
Id. at 125 (alteration omitted) (quoting Clinton, 524
U.S. at 444, 445). However, “when the DHS Secretary
exercises his waiver authority under the [IIRIRA], he
is acting as Congress has expressly directed—i.e., to
‘expeditious[ly]’ construct ‘physical barriers and roads
. . . to deter illegal crossings in areas of high illegal entry[.]’ ” Id. (second alteration and ellipsis in original)
(quoting IIRIRA § 102(a), (c)(1)). Moreover, and finally,
“[t]he [IIRIRA’s] waiver provision . . . relates to foreign
affairs and immigration control[,]” which are two
“area[s] in which the Executive Branch has traditionally exercised a large degree of discretion.” Id. at 126;

App. 54
see also Clinton, 524 U.S. at 445 (explaining that “the
foreign affairs arena” is one in which the President has
“a degree of discretion and freedom from statutory restriction which would not be admissible were domestic
affairs alone involved”).
Next, although the plaintiffs in Defenders of Wildlife did not specifically invoke the Take Care Clause, in
support of their claim that the IIRIRA’s section 102(c)
waiver authority violates the non-delegation doctrine,
they asserted that “[t]he fundamental constitutional
role of the Executive Branch under Article II . . . is to
faithfully execute—not selectively void—the laws[,]”
527 F. Supp. 2d at 126 (internal quotation marks and
citation omitted), and argued that both “[t]he Secretary’s attempt to repeal unilaterally nineteen laws
that otherwise would have constrained his conduct,
and the law that purports to authorize him in taking
such improper action, thus squarely offend both Articles I and II[,]” id. (internal quotation marks and citation omitted).20 These arguments also failed to persuade
Judge Huvelle.
She persuasively explained that, “[i]n order to exercise the waiver authority under the [IIRIRA], Congress has required the Secretary to determine if the
waiver is ‘necessary to ensure expeditious construction
of the barriers and roads under [section 102 of IIRIRA].’ ”
Id. at 127 (second alteration in original) (quoting IIRIRA
20

Thus, in this context, non-delegation doctrine and Take
Care Clause arguments are the same. See U.S. Const. art. II, § 3
(requiring that the President “shall take Care that the Laws be
faithfully executed”).

App. 55
§ 102(c)(1)). Congress has further directed the Secretary “to construct fencing only ‘in the vicinity of the
United States border to deter illegal crossings in areas
of high illegal entry into the United States.’ ” Id. (quoting IIRIRA § 102(a)). With these statutory limitations
in mind, Judge Huvelle then concluded that “[t]his
legislative directive meets the requirements of the
Supreme Court’s nondelegation cases[,]” id., because
“[t]he ‘general policy’ is ‘clearly delineated’—i.e. to expeditiously ‘install additional physical barriers and
roads . . . to deter illegal crossings in areas of high illegal entry[,]’ ” id. (ellipsis in original) (quoting Mistretta, 488 U.S. at 372-73; IIRIRA § 102(a)). Moreover,
“the ‘boundaries’ of the delegated authority are clearly
defined by Congress’s requirement that the Secretary
may waive only those laws that he determines ‘necessary to ensure expeditious construction.’ ” Id. (quoting
Mistretta, 488 U.S. at 372-73; IIRIRA § 102(c)(1)).
Judge Huvelle then compared the IIRIRA’s waiver
provision with delegations of power that the Supreme
Court had previously upheld, see id. (citing Whitman
v. Am. Trucking Ass’ns, 531 U.S. 457 (2001)), and observed that her conclusion that the IIRIRA’s waiver
provision does not constitute “an impermissibly standardless delegation” was “in accord with the only other
decision to address the question of whether the
[IIRIRA’s] waiver provision is a constitutional delegation[,]” id. (citing Sierra Club, 2005 U.S. Dist. LEXIS
44244, at *21). Significantly for present purposes,
Judge Huvelle further noted that “even if, as argued by
plaintiffs, this waiver provision is unique insofar as the

App. 56
number of laws that may be waived is theoretically
unlimited, the Secretary may only exercise the waiver
authority for the ‘narrow purpose’ prescribed by Congress: ‘expeditious completion’ of the border fences authorized by IIRIRA in areas of high illegal entry.” Id.
at 128 (quoting Sierra Club, 2005 U.S. Dist. LEXIS
44244, at *20).
In the instant case, Plaintiffs have challenged the
exact same statutory provision—the IIRIRA’s section
102(c)(1)—on the exact same separation-of-powers
grounds, and they have done so by repackaging essentially the same constitutional arguments that Judge
Huvelle found unpersuasive in Defenders of Wildlife.21
21

For example, Plaintiffs argue that the IIRIRA’s section
102(c)(1) waiver authority violates the Presentment Clause, because “the act of waiving a law’s application to border wall construction effectively repeals a portion of that duly enacted statute
and, in both ‘legal and practical effect’ amends into that statute
an exemption provision for border wall construction.” (Pls.’ Mem.
at 46 (quoting Clinton, 524 U.S. at 438); see also id. (asserting
that the DHS Secretary’s waiver “functionally result[ed] in ‘truncated versions of [25] bills that passed both Houses of Congress’ ”
(second alteration in original) (quoting Clinton, 524 U.S. at 440)).)
Plaintiffs also argue that section 102(c)(1) is “devoid of intelligible
principle” if that statute is interpreted as unbounded by the specific projects outlined in section 102(b) (id. at 49), and that, by
invoking the section 102(c)(1) waiver, the Executive Branch is
shirking its Article II responsibility to faithfully execute the law
(see id. at 53-54); cf. Defs. of Wildlife, 527 F. Supp. 2d at 126
(maintaining that the Executive Branch is supposed to “faithfully
execute—not selectively void—the laws” (internal quotation marks
and citation omitted)). As a final example, Plaintiffs reiterate the
Defenders of Wildlife plaintiffs’ argument that section 102(c)’s
waiver authority is exceptionally broad, “as broad, if not broader,
than prior delegations of legislative authority to the Executive

App. 57
Nevertheless, Plaintiffs attempt to distinguish the
instant case from Defenders of Wildlife, first, by asserting that that case “arose in the context of DHS carrying
out activities specifically authorized under [IIRIRA
section] 102(b)” (Pls.’ Mem. at 48 (citing Defs. of Wildlife, 527 F. Supp. 2d at 128)), and, second, by insisting
that the Defenders of Wildlife plaintiffs “narrowly challenged the constitutionality of the scope of laws that
the Secretary may waive—and did not challenge, as is
at issue here, the constitutionality of the waiver’s application to types of construction, project geography,
and time.” (Pls.’ Opp’n at 36 (emphasis in original).)
Both of these contentions miss the mark.
To begin with, nothing about Judge Huvelle’s analysis in Defenders of Wildlife turned on section 102(c)’s
waiver authority’s being limited by section 102(b). See
527 F. Supp. 2d at 123-26 (never mentioning section
102(b) when assessing the plaintiffs’ argument that
the DHS Secretary’s waiver violated the Presentment
Clause, nor when concluding that it had not, and quoting only from IIRIRA sections 102(c) and 102(a) when
observing that the DHS Secretary acted “as Congress
has expressly directed”). Furthermore, Defenders of Wildlife does not hold that Congress had provided a sufficiently intelligible principle to guide DHS’s authority
under the IIRIRA’s waiver provision by limiting section
102(c)’s waiver authority to section 102(b) projects.
Branch that the Supreme Court has deemed unconstitutional.”
(Pls.’ Mem. at 50 (citing Panama Refining Co. v. Ryan, 293 U.S.
388 (1935); A.L.A. Schechter Poultry Corp. v. United States, 295
U.S. 495 (1935)).)

App. 58
Rather, as the opinion plainly states, Congress provided a guiding principle by specifying that “the Secretary may only exercise the waiver authority for the
‘narrow purpose’ prescribed by Congress: ‘expeditious
completion’ of the border fences authorized by IIRIRA
in areas of high illegal entry[,]” Defs. of Wildlife, 527
F. Supp. 2d at 128 (quoting Sierra Club, 2005 U.S.
Dist. LEXIS 44244, at *20), and this principle applies
with respect to the New Mexico Waiver as well. Therefore, this Court sees no reason to diverge from Judge
Huvelle’s reasoning or conclusions under the circumstances presented in this case.
Nor have Plaintiffs offered any other case that
compels a different result. As Judge Huvelle noted, Sierra Club v. Ashcroft does not stand for the proposition
that “the geographic scope of the waiver authority”
must be “limited” in order to be constitutional. Id. at
128 n.7.22 “Rather, the court upheld the waiver because
the ‘necessity’ standard provided an adequate intelligible principle to circumscribe the action the Secretary
was permitted to take.” Id. (citing Sierra Club, 2005
U.S. Dist. LEXIS 44244, at *20-21). And, importantly,
that intelligible principle derives from section 102(c),
which authorizes the DHS Secretary to waive laws to
the extent that the Secretary “determines” such waiver
22

As Defenders of Wildlife puts it: “the Sierra Club court mistakenly believed that the [IIRIRA’s] waiver provision applies only
to the construction of a specific section of fencing near San Diego[,]” id. at 128 n.7 (citing Sierra Club, 2005 U.S. Dist. LEXIS
44244, at *21), but its “reasoning was not dependent on the belief
that the geographic scope of the waiver authority was so limited[,]” id.

App. 59
is “necessary to ensure expeditious construction of
the barriers and roads under this section[,]” IIRIRA
§ 102(c), and also section 102(a), which authorizes the
Secretary to “take such actions as may be necessary
to install additional physical barriers and roads . . . in
the vicinity of the United States border to deter illegal
crossings in areas of high illegal entry into the United
States[,]” id. § 102(a). Therefore, section 102(b)’s further direction is functionally unnecessary for section
102(c)(1) to comport with constitutional separation-ofpowers principles. Put another way, from the standpoint
of what suffices as guidance from Congress regarding
how the Executive Branch is to exercise the authority
granted in the statute for constitutional purposes, what
is set forth in subsections 102(a) and 102(c) is enough.
See also Cty. of El Paso v. Chertoff, No. EP-08-CA-196,
2008 WL 4372693, at * 4 (W.D. Tex. Aug. 29, 2008)
(“[T]he Waiver Legislation clearly satisfies the intelligible principle standard.”); Save Our Heritage Org.,
533 F. Supp. 2d at 64 (“[T]his Court finds no constitutional impediment to the Secretary’s waivers because
there is an intelligible principle that the Secretary must
conform to in the exercise of his delegated power.”).
3. Plaintiffs’ Take Care Clause claim is another iteration of Plaintiffs’ Presentment
Clause and non-delegation doctrine arguments, and it fails for the same reasons
Finally, “it is not at all clear that a claim under the
Take Care Clause presents a justiciable claim for this
Court’s resolution.” Am. Fed. of Gov’t Emps., AFL-CIO,

App. 60
318 F. Supp. 3d at 439 (citing Citizens for Responsibility & Ethics in Wash. v. Trump, 302 F. Supp. 3d 127,
138-40 (D.D.C. 2018)). But even if it does, the Take
Care Clause claim that Plaintiffs make in the instant
action merely repackages their two other constitutional claims, and, therefore, it must suffer the same
fate.
Plaintiffs maintain, for example, that “in issuing
the [New Mexico] Waiver, [the DHS Secretary] is purporting to be a lawmaker . . . , leading to the effective
repeals of portions of duly enacted statutes . . . without
being confined and guided by the Congressional construction mandate in § 102(b)” (Pls.’ Mem. at 53)—an
argument that echoes, almost verbatim, their argument in support of the Presentment Clause claim (see
id. at 46 (“[T]he act of waiving a law’s application to
border wall construction effectively repeals a portion of
that duly enacted statute[.]”)), as well as their argument in support of the non-delegation doctrine claim
(see id. at 49 (arguing that summary judgment is appropriate because the IIRIRA’s section 102(c) “lacks
the requisite boundaries of this delegated authority”).
(See also Pls.’ Opp’n at 40 (clarifying that the Secretary’s invocation of IIRIRA section 102(c) violates the
Take Care Clause “because the New Mexico Waiver
overreaches into Congress’s lawmaking authority”).)
Plaintiffs have offered no basis for treating or viewing
their Take Care Clause claim as anything other than a
rehashing of the same concern that animates Plaintiffs’ Presentment and non-delegation claims—i.e., that
Congress has delegated to DHS unlimited authority to

App. 61
exercise, in essence, legislative power, in a manner that
the U.S. Constitution does not permit—and this Court
has already explained why Plaintiffs have failed to establish that section 102(c)(1) and the New Mexico
Waiver “overreach[ ] into Congress’s lawmaking authority” in violation of the Constitution’s separation-ofpowers principles. (See supra Part III.B.2.)
Because Plaintiffs’ underdeveloped Take Care
Clause claim is founded on the legal arguments that
this Court has already rejected, it requires nothing
more in terms of analysis. Therefore, this Court’s prior
reasoning is the basis for its present conclusion that
Plaintiffs’ Take Care Clause claim must be dismissed
as well.
IV. CONCLUSION
This Court finds that Congress has spoken in no
uncertain terms about the limits of judicial review
when it comes to legal claims that challenge on nonconstitutional grounds the DHS Secretary’s authority
to waive otherwise-applicable legal requirements with
respect to the construction of border barriers under the
IIRIRA. Indeed, the IIRIRA’s section 102(c)(2)(A) specifically states that, with respect to “causes or claims
arising from any action undertaken, or any decision
made, by the Secretary of Homeland Security pursuant
to [section 102(c)(1)],” such a “cause of action or claim
may only be brought alleging a violation of the Constitution of the United States[,] [and] [t]he court shall not
have jurisdiction to hear any claim not specified in this

App. 62
subparagraph.” IIRIRA § 102(c)(2)(A). Thus, this Court
has no authority to consider the merits of Plaintiffs’
arguments that the New Mexico Waiver is ultra vires
or otherwise unlawful. And to the extent that Plaintiffs
have proceeded to make Presentment Clause, nondelegation doctrine, and Take Care Clause claims regarding the impermissibility of the New Mexico
Waiver, they have done so against the backdrop of a
prior determination by a judge in this district that
section 102 provides sufficient limitations on DHS’s
authority so as not to violate the Constitution’s
separation-of-powers principles. This Court finds that
precedent persuasive, and it compels the conclusion
that Plaintiffs’ complaint fails to state plausible constitutional claims as a matter of law.
Accordingly, and as set forth in the accompanying
Order, Plaintiffs’ motion for summary judgment must
be DENIED, and Defendants’ motion to dismiss, or,
in the alternative, for summary judgment must be
GRANTED.
DATE: September 5, 2019
/s/ Ketanji Brown Jackson
KETANJI BROWN JACKSON
United States District Judge

App. 63
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CENTER FOR BIOLOGICAL )
)
DIVERSITY, et al.,
)
Plaintiffs,
)
v.
)
No. 18-cv-655 (KBJ)
KEVIN McALEENAN, Acting )
Secretary of the Department of )
)
Homeland Security, et al.,
)
Defendants.
)
ORDER
(Filed Sep. 4, 2019)
For the reasons stated in the accompanying Memorandum Opinion, it is hereby
ORDERED that Plaintiffs’ Motion for Summary
Judgment (ECF No. 16) is DENIED. It is
FURTHER ORDERED that Defendants’ Motion
to Dismiss and Alternatively Cross-Motion for Summary Judgment (ECF No. 21) is GRANTED, insofar
as Plaintiffs’ claims are dismissed. It is
FURTHER ORDERED that Plaintiffs’ Partial
Motion for Summary Judgment Regarding Texas Waivers (ECF No. 30) is DENIED.

App. 64
DATE: September 4, 2019
/s/ Ketanji Brown Jackson
KETANJI BROWN JACKSON
United States District Judge

App. 65
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CENTER FOR BIOLOGICAL )
)
DIVERSITY, et al.,
)
Plaintiffs,
)
v.
)
No. 18-cv-655 (KBJ)
KEVIN McALEENAN, Acting )
Secretary of the Department of )
)
Homeland Security, et al.,
)
Defendants.
)
ORDER
(Filed Sep. 11, 2019)
In the Memorandum Opinion and Order that this
Court issued on September 4, 2019, the Court dismissed Plaintiffs’ claims in case No. 18-cv-655 (see ECF
Nos. 37, 38), and also denied Plaintiffs’ motion for partial summary judgment in consolidated case No. 18-cv2396 (see Mem. Op., ECF No. 37, at 17 & n.14). Given
this ruling, it is hereby
ORDERED that Defendants’ Motion for Partial
Dismissal (ECF No. 39) is GRANTED, and that the
claims in case No. 18-cv-2396 are DISMISSED.

App. 66
DATE: September 11, 2019
/s/ Ketanji Brown Jackson
KETANJI BROWN JACKSON
United States District Judge

App. 67
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
CENTER FOR BIOLOGICAL )
)
DIVERSITY, et al.,
)
Plaintiffs,
)
No. 1:19-02085 (KBJ)
v.
)
KEVIN McALEENAN, et al., )
)
Defendants.
)
ORDER
(Filed Sep. 12, 2019)
On September 4, 2019, this Court issued a Memorandum Opinion in Case No. 18-00655, resolving claims
over certain of Defendants’ waiver determinations made
pursuant to the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (“IIRIRA”) (codified at
8 U.S.C § 1103 note). In light of that ruling, and the
parties’ Stipulation in this action, it is hereby:
ORDERED that Plaintiffs’ Amended Complaint
is dismissed for the reasons set forth in the Court’s
opinion in Case No. 18-00655, with the understanding
that the parties’ appeal rights remain preserved; and
further
ORDERED that Plaintiffs’ Motion for a Preliminary Injunction and Request for a Hearing (ECF No.
8) is hereby deemed withdrawn; and it is further

App. 68
ORDERED that the Court’s September 9, 2019
Minute Order calling for a Joint Status Report is
hereby withdrawn.
DATE: September 13, 2019
/s/ Ketanji Brown Jackson
KETANJI BROWN JACKSON
United States District Judge

App. 69
APPENDIX C
U.S. Constitution
Article I, Section 1—The Legislature
All legislative Powers herein granted shall be
vested in a Congress of the United States, which shall
consist of a Senate and House of Representatives.
*

*

*

Article I, Section 7—Revenue Bills,
Legislative Process, Presidential Veto
All bills for raising Revenue shall originate in the
House of Representatives; but the Senate may propose
or concur with Amendments as on other Bills.
Every Bill which shall have passed the House of
Representatives and the Senate, shall, before it become
a Law, be presented to the President of the United
States; If he approve he shall sign it, but if not he shall
return it, with his Objections to that House in which it
shall have originated, who shall enter the Objections
at large on their Journal, and proceed to reconsider it.
If after such Reconsideration two thirds of that House
shall agree to pass the Bill, it shall be sent, together
with the Objections, to the other House, by which it
shall likewise be reconsidered, and if approved by two
thirds of that House, it shall become a Law. But in all
such Cases the Votes of both Houses shall be determined by Yeas and Nays, and the Names of the Persons
voting for and against the Bill shall be entered on
the Journal of each House respectively. If any Bill shall
not be returned by the President within ten Days

App. 70
(Sundays excepted) after it shall have been presented
to him, the Same shall be a Law, in like Manner as if
he had signed it, unless the Congress by their Adjournment prevent its Return, in which Case it shall not be
a Law.
Every Order, Resolution, or Vote to which the Concurrence of the Senate and House of Representatives
may be necessary (except on a question of Adjournment) shall be presented to the President of the United
States; and before the Same shall take Effect, shall be
approved by him, or being disapproved by him, shall be
repassed by two thirds of the Senate and House of Representatives, according to the Rules and Limitations
prescribed in the Case of a Bill.
*

*

*

App. 71
APPENDIX D
Illegal Immigration Reform and Immigrant Responsibility Act Section 102, codified at 8 U.S.C. § 1103 note,
provides as follows:
(a) In General.—The Secretary of Homeland
Security shall take such actions as may be necessary
to install additional physical barriers and roads (including the removal of obstacles to detection of illegal
entrants) in the vicinity of the United States border to
deter illegal crossings in areas of high illegal entry into
the United States.
(b) Construction of Fencing and Road Improvements Along The Border.
(1) Additional fencing along southwest
border.—
(A) Reinforced fencing.—In carrying out subsection (a), the Secretary of Homeland Security shall construct reinforced
fencing along not less than 700 miles of the
southwest border where fencing would be
most practical and effective and provide for
the installation of additional physical barriers, roads, lighting, cameras, and sensors to
gain operational control of the southwest border.
(B) Priority areas.—In carrying out
this section [amending this section], the Secretary of Homeland Security shall—
(i) identify the 370 miles, or other
mileage determined by the Secretary, whose

App. 72
authority to determine other mileage shall
expire on December 31, 2008, along the
southwest border where fencing would
be most practical and effective in deterring smugglers and aliens attempting to
gain illegal entry into the United States;
and
(ii) not later than December 31,
2008, complete construction of reinforced
fencing along the miles identified under
clause (i).
(C)

Consultation.—

(i) In general.—In carrying out this
section, the Secretary of Homeland Security shall consult with the Secretary of
the Interior, the Secretary of Agriculture,
States, local governments, Indian tribes,
and property owners in the United States
to minimize the impact on the environment, culture, commerce, and quality of
life for the communities and residents located near the sites at which such fencing
is to be constructed.
(ii) Savings provision.—Nothing in
this subparagraph may be construed
to—
(I) create or negate any right of
action for a State, local government,
or other person or entity affected by
this subsection; or

App. 73
(II) affect the eminent domain
laws of the United States or of any
State.
(D) Limitation on requirements.—
Notwithstanding subparagraph (A), nothing
in this paragraph shall require the Secretary
of Homeland Security to install fencing, physical barriers, roads, lighting, cameras, and
sensors in a particular location along an international border of the United States, if
the Secretary determines that the use or
placement of such resources is not the most
appropriate means to achieve and maintain
operational control over the international border at such location.
(2) Prompt acquisition of necessary
easements.—The Attorney General, acting under
the authority conferred in section 103(b) of the Immigration and Nationality Act [8 U.S.C. 1103(b)]
(as inserted by subsection (d)), shall promptly acquire such easements as may be necessary to carry
out this subsection and shall commence construction of fences immediately following such acquisition (or conclusion of portions thereof ).
(3) Safety features.—The Attorney General, while constructing the additional fencing under this subsection, shall incorporate such safety
features into the design of the fence system as are
necessary to ensure the well-being of border patrol
agents deployed within or in near proximity to the
system.

App. 74
(4) Authorization of appropriations.—
There are authorized to be appropriated such
sums as may be necessary to carry out this subsection. Amounts appropriated under this paragraph are authorized to remain available until
expended.
(c)

Waiver.—

(1) In general.—Notwithstanding any other
provision of law, the Secretary of Homeland Security shall have the authority to waive all legal
requirements such Secretary, in such Secretary’s
sole discretion, determines necessary to ensure
expeditious construction of the barriers and
roads under this section. [amending this section].
Any such decision by the Secretary shall be effective upon being published in the Federal Register.
(2)

Federal court review.—

(A) In general.—The district courts of
the United States shall have exclusive jurisdiction to hear all causes or claims arising
from any action undertaken, or any decision
made, by the Secretary of Homeland Security
pursuant to paragraph (1). A cause of action
or claim may only be brought alleging a violation of the Constitution of the United
States. The court shall not have jurisdiction
to hear any claim not specified in this subparagraph.
(B) Time for filing of complaint.—
Any cause or claim brought pursuant to subparagraph (A) shall be filed not later than 60

App. 75
days after the date of the action or decision
made by the Secretary of Homeland Security.
A claim shall be barred unless it is filed within
the time specified.
(C) Ability to seek appellate review.—An interlocutory or final judgment,
decree, or order of the district court may be
reviewed only upon petition for a writ of certiorari to the Supreme Court of the United
States.

App. 76
APPENDIX E
DEPARTMENT OF HOMELAND SECURITY
Office of the Secretary
Determination Pursuant to Section 102 of the
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996, as Amended
AGENCY: Office of the Secretary, Department of
Homeland Security.
ACTION: Notice of determination.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY: The Secretary of Homeland Security has
determined, pursuant to law, that it is necessary to
waive certain laws, regulations and other legal requirements in order to ensure the expeditious construction of barriers and roads in the vicinity of the
international land border of the United States near the
Santa Teresa Land Port of Entry in the state of New
Mexico.
DATES: This determination takes effect on January
22, 2018.
SUPPLEMENTARY INFORMATION: The principal mission requirements of the Department of Homeland Security (“DHS”) include border security and the
detection and prevention of illegal entry into the
United States. Border security is critical to the nation’s
national security. Recognizing the critical importance
of border security, Congress has ordered DHS to
achieve and maintain operational control of the international land border. Secure Fence Act of 2006, Public

App. 77
Law 109–367, 2, 120 Stat. 2638 (Oct. 26, 2006) (8 U.S.C.
1701 note). Congress defined “operational control” as
the prevention of all unlawful entries into the United
States, including entries by terrorists, other unlawful
aliens, instruments of terrorism, narcotics, and other
contraband. Id. Consistent with that mandate from
Congress, the President’s Executive Order on Border
Security and Immigration Enforcement Improvements
directed executive departments and agencies to deploy
all lawful means to secure the southern border. Executive Order 13767, § 1. To achieve this end, the President directed, among other things, that I take
immediate steps to prevent all unlawful entries into
the United States, to include the immediate construction of physical infrastructure to prevent illegal entry.
Executive Order 13767, § 4(a).
Congress has provided the Secretary of Homeland
Security with a number of authorities necessary to
carry out DHS’s border security mission. One of these
authorities is found at section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of
1996 (“IIRIRA”). Public Law 104–208, Div. C, 110 Stat.
3009–546, 3009–554 (Sept. 30, 1996) (8 U.S.C. 1103
note), as amended by the REAL ID Act of 2005, Public
Law 109–13, Div. B, 119 Stat. 231, 302, 306 (May 11,
2005) (8 U.S.C. 1103 note), as amended by the Secure
Fence Act of 2006, Public Law 109–367, 3, 120 Stat.
2638 (Oct. 26, 2006) (8 U.S.C. 1103 note), as amended
by the Department of Homeland Security Appropriations Act, 2008, Public Law 110–161, Div. E, Title V,
§ 564, 121 Stat. 2090 (Dec. 26, 2007). In section 102(a)

App. 78
of IIRIRA, Congress provided that the Secretary of
Homeland Security shall take such actions as may be
necessary to install additional physical barriers and
roads (including the removal of obstacles to detection
of illegal entrants) in the vicinity of the United States
border to deter illegal crossings in areas of high illegal
entry into the United States. In section 102(b) of
IIRIRA, Congress has called for the installation of additional fencing, barriers, roads, lighting, cameras, and
sensors on the southwest border. Finally, in section
102(c) of IIRIRA, Congress granted to the Secretary of
Homeland Security the authority to waive all legal requirements that I, in my sole discretion, determine
necessary to ensure the expeditious construction of
barriers and roads authorized by section 102 of
IIRIRA.
Determination and Waiver
Section 1
The United States Border Patrol’s El Paso Sector
is an area of high illegal entry. For example, in fiscal
year 2016, the United States Border Patrol (“Border
Patrol”) apprehended over 25,000 illegal aliens and
seized approximately 67,000 pounds of marijuana and
approximately 157 pounds of cocaine. Since the creation of DHS, and through the construction of border infrastructure and other operational improvements, the
Border Patrol has been able to make significant gains
in border security within the El Paso Sector; however,
more work needs to be done. In fact, in recent years,

App. 79
the El Paso Sector has seen an increase in apprehensions. The El Paso Sector therefore remains an area of
high illegal entry for which there is an immediate need
to construct border barriers and roads.
To begin to meet the need for enhanced border infrastructure in the El Paso Sector, DHS will take immediate action to replace existing vehicle barrier with
bollard wall. Vehicle barrier replacement in the El
Paso Sector is among DHS’s highest priority border security requirements. The vehicle barrier replacement
will take place along an approximately twenty mile
segment of the border that starts at the Santa Teresa
Land Port of Entry and extends westward. This approximately twenty mile segment of the border is referred to herein as the “project area” and is more
specifically described in Section 2 below.
Although the existing vehicle barrier has aided
border enforcement within the project area, Border Patrol must have a more effective means of deterring and
preventing illegal crossings. The area within Mexico
that is situated across the border from the project area
has a population of almost two million people, including the city of Ciudad Juarez. The close proximity of
this heavily populated area and its urban infrastructure creates opportunities for illegal entrants to gain
quick and immediate access to the border. On the
United States side of the border, the eastern portion of
the project area includes developed areas where illegal
aliens can quickly blend into the population and have

App. 80
ready access to roads, highways, and other infrastructure. The western portion of the project area is made
up of desert areas where there is little to no natural
terrain that deters illegal crossings and illegal aliens
can quickly access state highways as a means of travel
into the interior of the United States. Replacing the existing vehicle barrier with bollard wall within the project area will improve Border Patrol’s operational
efficiency and, in turn, further deter and prevent illegal crossings.
Section 2
I determine that the following area in the vicinity
of the United States border, located in the State of New
Mexico within the United States Border Patrol’s El
Paso Sector is an area of high illegal entry (the “project
area”): Starting at the Santa Teresa Land Port of Entry
and extending west to Border Monument 10.
There is presently a need to construct physical
barriers and roads in the vicinity of the border of the
United States to deter illegal crossings in the project
area. In order to ensure the expeditious construction of
the barriers and roads in the project area, I have determined that it is necessary that I exercise the authority that is vested in me by section 102(c) of the
IIRIRA as amended.
Accordingly, pursuant to section 102(c) of IIRIRA,
I hereby waive in their entirety, with respect to the construction of roads and physical barriers (including, but
not limited to, accessing the project area, creating and

App. 81
using staging areas, the conduct of earthwork, excavation, fill, and site preparation, and installation and upkeep of physical barriers, roads, supporting elements,
drainage, erosion controls, and safety features) in the
project area, the following statutes, including all federal, state, or other laws, regulations and legal requirements of, deriving from, or related to the subject of, the
following statutes, as amended: The National Environmental Policy Act (Pub. L. 91–190, 83 Stat. 852 (Jan. 1,
1970) (42 U.S.C. 4321 et seq.)), the Endangered Species
Act (Pub. L. 93–205, 87 Stat. 884 (Dec. 28, 1973) (16
U.S.C. 1531 et seq.)), the Federal Water Pollution Control Act (commonly referred to as the Clean Water Act
(33 U.S.C. 1251 et seq.)), the National Historic Preservation Act (Pub. L. 89665, 80 Stat. 915 (Oct. 15, 1966),
as amended, repealed, or replaced by Pub. L. 113–287
(Dec. 19, 2014) (formerly codified at 16 U.S.C. 470 et
seq., now codified at 54 U.S.C. 100101 note and 54
U.S.C. 300101 et seq.)), the Migratory Bird Treaty Act
(16 U.S.C. 703 et seq.), the Migratory Bird Conservation Act (16 U.S.C. 715 et seq.), the Clean Air Act (42
U.S.C. 7401 et seq.), the Archeological Resources Protection Act (Pub. L. 96–95 (16 U.S.C. 470aa et seq.)), the
Paleontological Resources Preservation Act (16 U.S.C.
470aaa et seq.), the Federal Cave Resources Protection
Act of 1988 (16 U.S.C. 4301 et seq.), the Safe Drinking
Water Act (42 U.S.C. 300f et seq.), the Noise Control Act
(42 U.S.C. 4901 et seq.), the Solid Waste Disposal Act,
as amended by the Resource Conservation and Recovery Act (42 U.S.C. 6901 et seq.), the Comprehensive Environmental Response, Compensation, and Liability
Act (42 U.S.C. 9601 et seq.), the Archaeological and Historic Preservation Act (Pub. L. 86–523, as amended,

App. 82
repealed, or replaced by Pub. L. 113–287 (Dec. 19,
2014) (formerly codified at 16 U.S.C. 469 et seq., now
codified at 54 U.S.C. 312502 et seq.)), the Antiquities
Act (formerly codified at 16 U.S.C. 431 et seq., now codified 54 U.S.C. 320301 et seq.), the Historic Sites, Buildings, and Antiquities Act (formerly codified at 16 U.S.C.
461 et seq., now codified at 54 U.S.C. 3201–320303 &
320101–320106), the Farmland Protection Policy Act
(7 U.S.C. 4201 et seq.), the Federal Land Policy and
Management Act (Pub. L. 94–579 (43 U.S.C. 1701 et
seq.)), National Fish and Wildlife Act of 1956 (Pub. L.
84–1024 (16 U.S.C. 742a, et seq.)), the Fish and Wildlife
Coordination Act (Pub. L. 73–121 (16 U.S.C. 661 et
seq.)), the Administrative Procedure Act (5 U.S.C. 551
et seq.), the Eagle Protection Act (16 U.S.C. 668 et seq.),
the Native American Graves Protection and Repatriation Act (25 U.S.C. 3001 et seq.), and the American Indian Religious Freedom Act (42 U.S.C. 1996).
This waiver does not repeal the previous waiver
published in the Federal Register on April 8, 2008
(73 FR 19078). I reserve the authority to make further
waivers from time to time as I may determine to be
necessary under section 102 of the IIRIRA, as amended.
Dated: January 10, 2018.
Kirstjen M. Nielsen,
Secretary of Homeland Security.
[FR Doc. 2018–00996 Filed 1–19–18; 8:45 am]
BILLING CODE 9111–14–P

App. 83
APPENDIX F
DEPARTMENT OF HOMELAND SECURITY
Office of the Secretary
Determination Pursuant to Section 102 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended
AGENCY: Office of the Secretary, Department of
Homeland Security.
ACTION: Notice of determination.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY: The Secretary of Homeland Security has
determined, pursuant to law, that it is necessary to
waive certain laws, regulations, and other legal requirements in order to ensure the expeditious construction of barriers and roads in the vicinity of the
international land border of the United States in Cameron County in the State of Texas.
DATES: This determination takes effect on October
10, 2018.
SUPPLEMENTARY INFORMATION: Important
mission requirements of the Department of Homeland
Security (“DHS”) include border security and the detection and prevention of illegal entry into the United
States. Border security is critical to the nation’s national security. Recognizing the critical importance of
border security, Congress has mandated DHS to
achieve and maintain operational control of the international land border. Secure Fence Act of 2006, Public
Law 109–367, § 2, 120 Stat. 2638 (Oct. 26, 2006) (8

App. 84
U.S.C. 1701 note). Congress defined “operational control” as the prevention of all unlawful entries into the
United States, including entries by terrorists, other
unlawful aliens, instruments of terrorism, narcotics,
and other contraband. Id. Consistent with that mandate from Congress, the President’s Executive Order
on Border Security and Immigration Enforcement Improvements directed executive departments and agencies to deploy all lawful means to secure the southern
border. Executive Order 13767, § 1. In order to achieve
that end, the President directed, among other things,
that I take immediate steps to prevent all unlawful entries into the United States, including the immediate
construction of physical infrastructure to prevent illegal entry. Executive Order 13767, § 4(a).
Congress has provided to the Secretary of Homeland Security a number of authorities necessary to
carry out DHS’s border security mission. One of those
authorities is found at section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of
1996, as amended (“IIRIRA”). Public Law 104–208, Div.
C, 110 Stat. 3009546, 3009–554 (Sept. 30, 1996) (8
U.S.C. 1103 note), as amended by the REAL ID Act of
2005, Public Law 109–13, Div. B 119 Stat. 231, 302, 306
(May 11, 2005) (8 U.S.C. 1103 note), as amended by the
Secure Fence Act of 2006, Public Law 109–367, §3, 120
Stat. 2638 (Oct. 26, 2006) (8 U.S.C. 1103 note), as
amended by the Department of Homeland Security Appropriations Act, 2008, Public Law 110–161, Div. E, Title V, § 564, 121 Stat. 2090 (Dec. 26, 2007). In section
102(a) of IIRIRA, Congress provided that the Secretary

App. 85
of Homeland Security shall take such actions as may
be necessary to install additional physical barriers and
roads (including the removal of obstacles to detection
of illegal entrants) in the vicinity of the United States
border to deter illegal crossings in areas of high illegal
entry into the United States. In section 102(b) of
IIRIRA, Congress mandated the installation of additional fencing, barriers, roads, lighting, cameras, and
sensors on the southwest border. Finally, in section
102(c) of IIRIRA, Congress granted to the Secretary of
Homeland Security the authority to waive all legal requirements that I, in my sole discretion, determine
necessary to ensure the expeditious construction of
barriers and roads authorized by section 102 of
IIRIRA.
Determination and Waiver
Section 1
The United States Border Patrol’s Rio Grande Valley Sector is an area of high illegal entry. For the last
several years, the Rio Grande Valley Sector has seen
more apprehensions of illegal aliens than any other
sector of the United States Border Patrol (“Border Patrol”). For example, in fiscal year 2017 alone, Border
Patrol apprehended over 137,000 illegal aliens. In that
same year Border Patrol seized approximately 260,000
pounds of marijuana and approximately 1,200 pounds
of cocaine.
In order to satisfy the need for additional border
infrastructure in the Rio Grande Valley Sector, DHS

App. 86
will take action to construct barriers and roads. DHS
will construct mechanical gates and roads within gaps
of existing barriers in the vicinity of the United States
border in the Rio Grande Valley Sector. The segments
of the border within which such construction will occur
are referred to herein as the “project area” and are
more specifically described in Section 2 below.
Section 2
I determine that the following areas in the vicinity
of the United States border, located in Cameron
County in the State of Texas, within the United States
Border Patrol’s Rio Grande Valley Sector, are areas of
high illegal entry (the “project area”):
• Starting approximately three-tenths (0.3) of a
mile west of a gap in the existing levee wall commonly
referred to as the Anacua gate location, which is situated at the intersection of Wichita Street and the International Boundary and Water Commission (IBWC)
levee approximately one and one-half (1.5) miles south
of the intersection of Wichita Street with US Route
281, and extending to approximately three-tenths (0.3)
of a mile east of the Anacua gate location.
• Starting approximately three-tenths (0.3) of a
mile west of a gap in the existing levee wall commonly
referred to as the Webber Road gate location, which is
situated at the intersection of Webber Road and the
IBWC levee located approximately eight-tenths (0.8) of
a mile southwest of the intersection of Webber Road
with US Route 281, and extending approximately

App. 87
three-tenths (0.3) of a mile east of the Webber Road
gate location.
• Starting approximately three-tenths (0.3) of a
mile southwest of a gap in the existing levee wall commonly referred to as the Cantu Road gate location,
which is situated at the intersection of Avilia Road and
the IBWC levee located approximately eight-tenths of
a mile south of the intersection of Avilia Road with US
Route 281, and extending approximately three-tenths
(0.3) of a mile northeast of the Cantu Road gate location.
• Starting approximately three-tenths (0.3) of a
mile west of a gap in the existing levee wall commonly
referred to as the Garza Sandpit Road gate location,
which is situated at the intersection of the County
Road 677 and the IBWC levee located approximately
two-tenths (0.2) of a mile southwest of the intersection
of County Road 677 with US Route 281, and extending
approximately three-tenths (0.3) of a mile northeast of
the Garza Sandpit Road gate location.
• Starting approximately three-tenths (0.3) of a
mile northwest of a gap in the existing levee wall commonly referred to as the Pool Road gate location, which
is situated at the intersection of Domanski Drive with
the IBWC levee located approximately one (1) mile
south of the intersection of Domanski Drive and US
Route 281, and extending approximately three-tenths
(0.3) of a mile southeast of the Pool Road gate location.
• Starting approximately three-tenths (0.3) of a
mile northwest of a gap in the existing levee wall

App. 88
commonly referred to as the Flor De Mayo gate location, which is situated at the intersection of Flor De
Mayo Road and the IBWC levee located approximately
seven-tenths (0.7) of a mile southwest of the intersection of Flor De Mayo Road with US Route 281, and extending approximately three-tenths (0.3) of a mile
southeast of the Flor De Mayo Road gate location.
• Starting approximately three-tenths (0.3) of a
mile northwest of a gap in the existing levee wall commonly referred to as the Impala Road gate location,
which is situated at the intersection of an unnamed
road and the IBWC levee (said unnamed road is approximately 250 feet long from its point of intersection
with the IBWC levee and a point located approximately 100 feet northwest of the intersection of Impala
Drive and Gazelle Avenue) located approximately one
(1) mile east of the Brownsville/Veterans Port of Entry,
and extending approximately three-tenths (0.3) of a
mile southeast of the Impala Road gate location.
• Starting approximately three-tenths (0.3) of a
mile west of a gap in the existing levee wall commonly
referred to as the South Point Road gate location,
which is situated at the intersection of South Point
Road and the IBWC levee located approximately
seven-tenths (0.7) of a mile south of the intersection of
South Point Road with Southmost Boulevard, and extending approximately three-tenths (0.3) of a mile
northeast of the South Point Road gate location.
• Starting approximately three-tenths (0.3) of a
mile south of a gap in the existing levee wall commonly

App. 89
referred to as the Loops Sandpit gate location, which
is situated at the intersection of an unnamed road and
the IBWC levee located approximately 65 feet east of
the intersection of Alaska Road with S. Oklahoma
Drive, and extending approximately three-tenths (0.3)
of a mile north of the Loops Sandpit gate location.
• Starting approximately three-tenths (0.3) of a
mile south of a gap in the existing levee wall commonly
referred to as the Implement Shed gate location, which
is situated at the intersection of County Road 142 and
the IBWC levee located approximately 675 feet east of
the intersection of Oklahoma Avenue with County
Road 142, and extending approximately three-tenths
(0.3) of a mile north of the Implement Shed gate location.
• Starting approximately three-tenths (0.3) of a
mile south of a gap in the existing levee wall commonly
referred to as the Florida Road gate location, which is
situated at the intersection of Florida Road and the
IBWC levee located approximately 600 feet east of the
intersection of Oklahoma Avenue with Florida Road,
and extending approximately three-tenths (0.3) of a
mile north of the Florida Road gate location.
There is presently an acute and immediate need
to construct physical barriers and roads in the vicinity
of the border of the United States in order to prevent
unlawful entries into the United States in the project
area. In order to ensure the expeditious construction of
the barriers and roads in the project area, I have

App. 90
determined that it is necessary that I exercise the authority that is vested in me by section 102(c) of IIRIRA.
Accordingly, pursuant to section 102(c) of IIRIRA,
I hereby waive in their entirety, with respect to the construction of roads and physical barriers (including, but
not limited to, accessing the project area, creating and
using staging areas, the conduct of earthwork, excavation, fill, and site preparation, and installation and upkeep of physical barriers, roads, supporting elements,
drainage, erosion controls, safety features, lighting,
cameras, and sensors) in the project area, all of the following statutes, including all federal, state, or other
laws, regulations, and legal requirements of, deriving
from, or related to the subject of, the following statutes,
as amended: The National Environmental Policy Act
(Pub. L. 91190, 83 Stat. 852 (Jan. 1, 1970) (42 U.S.C.
4321 et seq.)); the Endangered Species Act (Pub. L. 93–
205, 87 Stat. 884 (Dec. 28, 1973) (16 U.S.C. 1531 et
seq.)); the Federal Water Pollution Control Act (commonly referred to as the Clean Water Act (33 U.S.C.
1251 et seq.)); the National Historic Preservation Act
(Pub. L. 89–665, 80 Stat. 915 (Oct. 15, 1966), as
amended, repealed, or replaced by Pub. L. 113–287
(Dec. 19, 2014) (formerly codified at 16 U.S.C. 470 et
seq., now codified at 54 U.S.C. 100101 note and 54
U.S.C. 300101 et seq.)); the Migratory Bird Treaty Act
(16 U.S.C. 703 et seq.); the Migratory Bird Conservation Act (16 U.S.C. 715 et seq.); the Clean Air Act (42
U.S.C. 7401 et seq.); the Archeological Resources Protection Act (Pub. L. 96–95 (16 U.S.C. 470aa et seq.)); the
Paleontological Resources Preservation Act (16 U.S.C.

App. 91
470aaa et seq.); the Federal Cave Resources Protection
Act of 1988 (16 U.S.C. 4301 et seq.); the Safe Drinking
Water Act (42 U.S.C. 300f et seq.); the Noise Control Act
(42 U.S.C. 4901 et seq.); the Solid Waste Disposal Act,
as amended by the Resource Conservation and Recovery Act (42 U.S.C. 6901 et seq.); the Comprehensive Environmental Response, Compensation, and Liability
Act (42 U.S.C. 9601 et seq.); the Archaeological and Historic Preservation Act (Pub. L. 86–523, as amended, repealed, or replaced by Pub. L. 113–287 (Dec. 19, 2014)
(formerly codified at 16 U.S.C. 469 et seq., now codified
at 54 U.S.C. 312502 et seq.)); the Antiquities Act (formerly codified at 16 U.S.C. 431 et seq., now codified 54
U.S.C. 320301 et seq.); the Historic Sites, Buildings,
and Antiquities Act (formerly codified at 16 U.S.C. 461
et seq., now codified at 54 U.S.C. 3201–320303 &
320101–320106); the Farmland Protection Policy Act
(7 U.S.C. 4201 et seq.); the Coastal Zone Management
Act (Pub. L. 92–583 (16 U.S.C. 1451, et seq.)); the Federal Land Policy and Management Act (Pub. L. 94–579
(43 U.S.C. 1701 et seq.)); the National Wildlife Refuge
System Administration Act (Pub. L. 89–669, 16 U.S.C.
668dd–668ee); National Fish and Wildlife Act of 1956
(Pub. L. 84–1024 (16 U.S.C. 742a, et seq.)); the Fish and
Wildlife Coordination Act (Pub. L. 73-121 (16 U.S.C.
661 et seq.)); the Administrative Procedure Act (5
U.S.C. 551 et seq.); the River and Harbors Act of 1899
(33 U.S.C. 403)); the Eagle Protection Act (16 U.S.C.
668 et seq.); the Native American Graves Protection
and Repatriation Act (25 U.S.C. 3001 et seq.); and the
American Indian Religious Freedom Act (42 U.S.C.
1996).

App. 92
This waiver does not revoke or supersede the previous waiver published in the Federal Register on
April 8, 2008 (73 FR 19078), which shall remain in full
force and effect in accordance with its terms. I reserve
the authority to execute further waivers from time to
time as I may determine to be necessary under section
102 of IIRIRA.
Dated: October 2, 2018.
Kirstjen M. Nielsen,
Secretary of Homeland Security.
[FR Doc. 2018–21930 Filed 10–9–18; 8:45 am]
BILLING CODE 9111–14–P

App. 93
APPENDIX G
DEPARTMENT OF HOMELAND SECURITY
Determination Pursuant to Section 102 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended
AGENCY: Office of the Secretary, Department of
Homeland Security.
ACTION: Notice of determination.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY: The Secretary of Homeland Security has
determined, pursuant to law, that it is necessary to
waive certain laws, regulations, and other legal requirements in order to ensure the expeditious construction of barriers and roads in the vicinity of the
international land border of the United States in Hidalgo County in the State of Texas.
DATES: This determination takes effect on October
11, 2018.
SUPPLEMENTARY INFORMATION: Important
mission requirements of the Department of Homeland
Security (“DHS”) include border security and the detection and prevention of illegal entry into the United
States. Border security is critical to the nation’s national security. Recognizing the critical importance of
border security, Congress has mandated DHS to
achieve and maintain operational control of the international land border. Secure Fence Act of 2006, Public
Law 109–367, §2, 120 Stat. 2638 (Oct. 26, 2006) (8
U.S.C. 1701 note). Congress defined “operational

App. 94
control” as the prevention of all unlawful entries into
the United States, including entries by terrorists, other
unlawful aliens, instruments of terrorism, narcotics,
and other contraband. Id. Consistent with that mandate from Congress, the President’s Executive Order
on Border Security and Immigration Enforcement Improvements directed executive departments and agencies to deploy all lawful means to secure the southern
border. Executive Order 13767, § 1. In order to achieve
that end, the President directed, among other things,
that I take immediate steps to prevent all unlawful entries into the United States, including the immediate
construction of physical infrastructure to prevent illegal entry. Executive Order 13767, § 4(a).
Congress has provided to the Secretary of Homeland Security a number of authorities necessary to
carry out DHS’s border security mission. One of those
authorities is found at section 102 of the Illegal Immigration Reform and Immigrant Responsibility Act of
1996, as amended (“IIRIRA”). Public Law 104–208, Div.
C, 110 Stat. 3009–546, 3009–554 (Sept. 30, 1996) (8
U.S.C. 1103 note), as amended by the REAL ID Act of
2005, Public Law 109–13, Div. B, 119 Stat. 231, 302,
306 (May 11, 2005) (8 U.S.C. 1103 note), as amended
by the Secure Fence Act of 2006, Public Law 109–367,
§3, 120 Stat. 2638 (Oct. 26, 2006) (8 U.S.C. 1103 note),
as amended by the Department of Homeland Security
Appropriations Act, 2008, Public Law 110–161, Div. E,
Title V, § 564, 121 Stat. 2090 (Dec. 26, 2007). In section
102(a) of IIRIRA, Congress provided that the Secretary
of Homeland Security shall take such actions as may

App. 95
be necessary to install additional physical barriers and
roads (including the removal of obstacles to detection
of illegal entrants) in the vicinity of the United States
border to deter illegal crossings in areas of high illegal
entry into the United States. In section 102(b) of
IIRIRA, Congress mandated the installation of additional fencing, barriers, roads, lighting, cameras, and
sensors on the southwest border. Finally, in section
102(c) of IIRIRA, Congress granted to the Secretary of
Homeland Security the authority to waive all legal requirements that I, in my sole discretion, determine
necessary to ensure the expeditious construction of
barriers and roads authorized by section 102 of
IIRIRA.
Determination and Waiver
Section 1
The United States Border Patrol’s Rio Grande Valley Sector is an area of high illegal entry. For the last
several years, the Rio Grande Valley Sector has seen
more apprehensions of illegal aliens than any other
sector of the United States Border Patrol (“Border Patrol”). For example, in fiscal year 2017 alone, Border
Patrol apprehended over 137,000 illegal aliens. In that
same year Border Patrol seized approximately 260,000
pounds of marijuana and approximately 1,200 pounds
of cocaine.
In order to satisfy the need for additional border
infrastructure in the Rio Grande Valley Sector, DHS
will take action to construct barriers and roads. DHS

App. 96
will construct barriers and roads within various segments of the border in the Rio Grande Valley Sector.
The segments of the border within which such construction will occur are referred to herein as the “project area” and are more specifically described in
Section 2 below.
Section 2
I determine that the following areas in the vicinity
of the United States border, located in Hidalgo County
in the State of Texas, within the United States Border
Patrol’s Rio Grande Valley Sector, are areas of high illegal entry (the “project area”):
• Starting approximately a quarter mile west of
the location where the levee intersects Goodwin/
Abram road and running east in proximity to the International Boundary and Water Commission (“IBWC”)
levee to approximately a quarter mile east of Anzalduas Dam Road, a total distance of approximately
eight (8) miles.
• Starting at the eastern boundary of the Santa
Ana National Wildlife Refuge and running east in
proximity to the IBWC levee approximately two and
four-tenths (2.4) miles to the western boundary of the
Monterrey Banco Tract of the Lower Rio Grande Valley
National Wildlife Refuge.
• Starting at the eastern boundary of the Monterrey Banco Tract of the Lower Rio Grande Valley National Wildlife Refuge and running south and east in

App. 97
proximity to the IBWC levee for approximately one
and one-half (1.5) miles.
• Starting at the eastern boundary of the La
Coma Tract of the Lower Rio Grande Valley National
Wildlife Refuge and running east in proximity to the
IBWC levee for approximately two and one-half (2.5)
miles.
• Starting where South International Boulevard crosses the IBWC levee and running west and
east in proximity to the IBWC levee approximately
one-half (0.5) of a mile in both directions.
• Starting approximately one-quarter (0.25) of
a mile west of the western boundary of the Mercedes
Settling Basin and running northeast in proximity to
the IBWC levee approximately two and one-half (2.5)
miles.
There is presently an acute and immediate need
to construct physical barriers and roads in the vicinity
of the border of the United States in order to prevent
unlawful entries into the United States in the project
area. In order to ensure the expeditious construction of
the barriers and roads in the project area, I have determined that it is necessary that I exercise the authority that is vested in me by section 102(c) of IIRIRA.
Accordingly, pursuant to section 102(c) of IIRIRA,
I hereby waive in their entirety, with respect to the construction of roads and physical barriers (including, but
not limited to, accessing the project area, creating and
using staging areas, the conduct of earthwork,

App. 98
excavation, fill, and site preparation, and installation
and upkeep of physical barriers, roads, supporting elements, drainage, erosion controls, safety features,
lighting, cameras, and sensors) in the project area, all
of the following statutes, including all federal, state, or
other laws, regulations, and legal requirements of, deriving from, or related to the subject of, the following
statutes, as amended: The National Environmental
Policy Act (Pub. L. 91–190, 83 Stat. 852 (Jan. 1, 1970)
(42 U.S.C. 4321 et seq.)); the Endangered Species Act
(Pub. L. 93–205, 87 Stat. 884 (Dec. 28, 1973) (16 U.S.C.
1531 et seq.)); the Federal Water Pollution Control Act
(commonly referred to as the Clean Water Act (33
U.S.C. 1251 et seq.)); the National Historic Preservation Act (Pub. L. 89–665, 80 Stat. 915 (Oct. 15, 1966),
as amended, repealed, or replaced by Public Law 113–
287 (Dec. 19, 2014) (formerly codified at 16 U.S.C. 470
et seq., now codified at 54 U.S.C. 100101 note and 54
U.S.C. 300101 et seq.)); the Migratory Bird Treaty Act
(16 U.S.C. 703 et seq.); the Migratory Bird Conservation Act (16 U.S.C. 715 et seq.); the Clean Air Act (42
U.S.C. 7401 et seq.); the Archeological Resources Protection Act (Pub. L. 96–95 (16 U.S.C. 470aa et seq.)); the
Paleontological Resources Preservation Act (16 U.S.C.
470aaa et seq.); the Federal Cave Resources Protection
Act of 1988 (16 U.S.C. 4301 et seq.); the Safe Drinking
Water Act (42 U.S.C. 300f et seq.); the Noise Control Act
(42 U.S.C. 4901 et seq.); the Solid Waste Disposal Act,
as amended by the Resource Conservation and Recovery Act (42 U.S.C. 6901 et seq.); the Comprehensive Environmental Response, Compensation, and Liability
Act (42 U.S.C. 9601 et seq.); the Archaeological and

App. 99
Historic Preservation Act (Pub. L. 86–523, as amended,
repealed, or replaced by Pub. L. 113–287 (Dec. 19,
2014) (formerly codified at 16 U.S.C. 469 et seq., now
codified at 54 U.S.C. 312502 et seq.)); the Antiquities
Act (formerly codified at 16 U.S.C. 431 et seq., now codified 54 U.S.C. 320301 et seq.); the Historic Sites, Buildings, and Antiquities Act (formerly codified at 16 U.S.C.
461 et seq., now codified at 54 U.S.C. 3201–320303 &
320101–320106); the Farmland Protection Policy Act
(7 U.S.C. 4201 et seq.); the Coastal Zone Management
Act (Pub. L. 92–583 (16 U.S.C. 1451, et seq.)); the Federal Land Policy and Management Act (Pub. L. 94–579
(43 U.S.C. 1701 et seq.)); the National Wildlife Refuge
System Administration Act (Pub. L. 89–669, 16 U.S.C.
668dd–668ee); National Fish and Wildlife Act of 1956
(Pub. L. 84–1024 (16 U.S.C. 742a, et seq.)); the Fish and
Wildlife Coordination Act (Pub. L. 73121 (16 U.S.C. 661
et seq.)); the Administrative Procedure Act (5 U.S.C.
551 et seq.); the River and Harbors Act of 1899 (33
U.S.C. 403)); the Eagle Protection Act (16 U.S.C. 668 et
seq.); the Native American Graves Protection and Repatriation Act (25 U.S.C. 3001 et seq.); and the American Indian Religious Freedom Act (42 U.S.C. 1996).
This waiver does not revoke or supersede the previous waiver published in the Federal Register on
April 8, 2008 (73 FR 19077), which shall remain in full
force and effect in accordance with its terms. I reserve
the authority to execute further waivers from time to
time as I may determine to be necessary under section
102 of IIRIRA.

App. 100
Dated: October 4, 2018.
Kirstjen M. Nielsen,
Secretary of Homeland Security.
[FR Doc. 2018–22063 Filed 10–10–18; 8:45 am]
BILLING CODE 9111–14–P

App. 101
APPENDIX H
DEPARTMENT OF HOMELAND SECURITY
Office of the Secretary
Determination Pursuant to Section 102 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended
AGENCY: Office of the Secretary, Department of
Homeland Security.
ACTION: Notice of determination.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY: The Secretary of Homeland Security has
determined, pursuant to law, that it is necessary to
waive certain laws, regulations, and other legal requirements in order to ensure the expeditious construction of barriers and roads in the vicinity of the
international land border in Cochise County and Pima
County, Arizona.
DATES: This determination takes effect on May 15,
2019.
SUPPLEMENTARY INFORMATION: Important
mission requirements of the Department of Homeland
Security (“DHS”) include border security and the detection and prevention of illegal entry into the United
States. Border security is critical to the nation’s national security. Recognizing the critical importance of
border security, Congress has mandated DHS to
achieve and maintain operational control of the international land border. Secure Fence Act of 2006, Public
Law 109–367, 2, 120 Stat. 2638 (Oct. 26, 2006) (8 U.S.C.

App. 102
1701 note). Congress defines “operational control” as
the prevention of all unlawful entries into the United
States, including entries by terrorists, other unlawful
aliens, instruments of terrorism, narcotics, and other
contraband. Id. Consistent with that mandate from
Congress, the President’s Executive Order on Border
Security and Immigration Enforcement Improvements
directed executive departments and agencies to deploy
all lawful means to secure the southern border. Executive Order 13767, § 1. In order to achieve that end, the
President directed, among other things, that I take immediate steps to prevent all unlawful entries into the
United States, including the immediate construction of
physical infrastructure to prevent illegal entry. Executive Order 13767, § 4(a).
Congress has provided to the Secretary of Homeland Security a number of authorities necessary to
carry out DHS’s border security mission. One of those
authorities is section 102 of the Illegal Immigration
Reform and Immigrant Responsibility Act of 1996, as
amended (“IIRIRA”). Public Law 104–208, Div. C, 110
Stat. 3009–546, 3009–554 (Sept. 30, 1996) (8 U.S.C.
1103 note), as amended by the REAL ID Act of 2005,
Public Law 109–13, Div. B, 119 Stat. 231, 302, 306 (May
11, 2005) (8 U.S.C. 1103 note), as amended by the Secure Fence Act of 2006, Public Law 109–367, 3, 120
Stat. 2638 (Oct. 26, 2006) (8 U.S.C. 1103 note), as
amended by the Department of Homeland Security Appropriations Act, 2008, Public Law 110–161, Div. E, Title V, § 564, 121 Stat. 2090 (Dec. 26, 2007). In section
102(a) of IIRIRA, Congress provided that the Secretary

App. 103
of Homeland Security shall take such actions as may
be necessary to install additional physical barriers and
roads (including the removal of obstacles to detection
of illegal entrants) in the vicinity of the United States
border to deter illegal crossings in areas of high illegal
entry into the United States. In section 102(b) of
IIRIRA, Congress mandated the installation of additional fencing, barriers, roads, lighting, cameras, and
sensors on the southwest border. Finally, in section
102(c) of IIRIRA, Congress granted to the Secretary of
Homeland Security the authority to waive all legal requirements that I, in my sole discretion, determine
necessary to ensure the expeditious construction of
barriers and roads authorized by section 102 of
IIRIRA.
Determination and Waiver
Section 1
The United States Border Patrol’s (Border Patrol)
Tucson Sector is an area of high illegal entry. In fiscal
year 2018, the Border Patrol apprehended over 52,000
illegal aliens attempting to enter the United States between border crossings in the Tucson Sector. Also in
fiscal year 2018, the Border Patrol had over 1,900 separate drug-related events between border crossings in
the Tucson Sector, through which it seized over
134,000 pounds of marijuana, 62 pounds of cocaine,
over 91 pounds of heroin, and over 902 pounds of methamphetamine. Additionally, Cochise and Pima Counties, which are within the Tucson Sector, have been

App. 104
identified as High Intensity Drug Trafficking Areas by
the Office of National Drug Control Policy.
During the high levels of illegal entry of people
and drugs within the Tucson Sector, I must use my authority under Section 102 of IIRIRA to install additional physical barriers and roads in the Tucson Sector.
Therefore, DHS will take immediate action to replace
existing barriers in the Tucson Sector. Construction
will occur along four separate segments of the border,
which are referred to herein as the “project areas” and
more specifically described in Section 2 below.
The existing barriers within the project areas include both vehicle fencing and outmoded pedestrian
fencing that no longer satisfy Border Patrol’s operational needs. Transnational criminal organizations
known for smuggling drugs and aliens into United
States from Mexico are known to operate in the area
These transnational criminal organizations have been
able to use the lack of adequate infrastructure and the
surrounding terrain, which provides high ground for
scouts seeking to protect and warn smugglers moving
through the area, to their advantage. Therefore, Border Patrol requires a more effective barrier. The existing vehicle barriers and outmoded pedestrian fencing
will be replaced with an 18 to 30 foot barrier that employs a more operationally effective design. In addition, roads will be constructed or improved and
lighting will be installed.
To support DHS’s action under Section 102 of
IIRIRA, DHS requested that the Department of

App. 105
Defense, pursuant to 10 U.S.C. 284(b)(7), assist by constructing fence, roads, and lighting within the Tucson
Sector in order to block drug smuggling corridors
across the international boundary between the United
States and Mexico. The Acting Secretary of Defense
has concluded that the support requested satisfies the
statutory requirements of 10 U.S.C. 284(b)(7) and that
the Department of Defense will provide such support
in the project areas described in Section 2 below.
Section 2
I determine that the following areas in the vicinity
of the United States border, located in the State of Arizona within the United States Border Patrol’s Tucson
Sector, are areas of high illegal entry (the “project areas”):
• Starting approximately one-half (.5) mile
west of Border Monument 178 and extending east to
Border Monument 162;
• Starting at Border Monument 100 and extending east for approximately one (1) mile;
• Starting at Border Monument 98 and extending east to Border Monument 97; and
• Starting approximately one-half (.5) mile
west of Border Monument 83 and extending east to
Border Monument 74.
There is presently an acute and immediate need
to construct physical barriers and roads in the vicinity

App. 106
of the border of the United States in order to prevent
unlawful entries into the United States in the project
areas pursuant to sections 102(a) and 102(b) of
IIRIRA. In order to ensure the expeditious construction of the barriers and roads in the project areas, I
have determined that it is necessary that I exercise the
authority that is vested in me by section 102(c) of
IIRIRA.
Accordingly, pursuant to section 102(c) of IIRIRA,
I hereby waive in their entirety, with respect to the construction of physical barriers and roads (including, but
not limited to, accessing the project areas, creating and
using staging areas, the conduct of earthwork, excavation, fill, and site preparation, and installation and upkeep of physical barriers, roads, supporting elements,
drainage, erosion controls, safety features, lighting,
cameras, and sensors) in the project areas, all of the
following statutes, including all federal, state, or other
laws, regulations, and legal requirements of, deriving
from, or related to the subject of, the following statutes,
as amended: The National Environmental Policy Act
(Pub. L. 91–190, 83 Stat. 852 (Jan. 1, 1970) (42 U.S.C.
4321 et seq.)); the Endangered Species Act (Pub. L. 93–
205, 87 Stat. 884 (Dec. 28, 1973) (16 U.S.C. 1531 et
seq.)); the Federal Water Pollution Control Act (commonly referred to as the Clean Water Act (33 U.S.C.
1251 et seq.)); the National Historic Preservation Act
(Pub. L. 89–665, 80 Stat. 915 (Oct. 15, 1966), as
amended, repealed, or replaced by Public Law 113–
287, 128 Stat. 3094 (Dec. 19, 2014) (formerly codified
at 16 U.S.C. 470 et seq., now codified at 54 U.S.C.

App. 107
100101 note and 54 U.S.C. 300101 et seq.)); the Migratory Bird Treaty Act (16 U.S.C. 703 et seq.); the Migratory Bird Conservation Act (16 U.S.C. 715 et seq.); the
Clean Air Act (42 U.S.C. 7401 et seq.); the Archeological
Resources Protection Act (Pub. L. 96–95, 93 Stat. 721
(Oct. 31, 1979) (16 U.S.C. 470aa et seq.)); the Paleontological Resources Preservation Act (16 U.S.C. 470aaa et
seq.); the Federal Cave Resources Protection Act of
1988 (16 U.S.C. 4301 et seq.); the Safe Drinking Water
Act (42 U.S.C. 300f et seq.); the Noise Control Act (42
U.S.C. 4901 et seq.); the Solid Waste Disposal Act, as
amended by the Resource Conservation and Recovery
Act (42 U.S.C. 6901 et seq.); the Comprehensive Environmental Response, Compensation, and Liability Act
(42 U.S.C. 9601 et seq.); the Archaeological and Historic
Preservation Act (Pub. L. 86–523, 74 Stat. 220 (June
27, 1960) as amended, repealed, or replaced by Public
Law 113–287, 128 Stat. 3094 (Dec. 19, 2014) (formerly
codified at 16 U.S.C. 469 et seq., now codified at 54
U.S.C. 312502 et seq.)); the Antiquities Act (formerly
codified at 16 U.S.C. 431 et seq., now codified 54 U.S.C.
320301 et seq.); the Historic Sites, Buildings, and Antiquities Act (formerly codified at 16 U.S.C. 461 et seq.,
now codified at 54 U.S.C. 3201–320303 & 320101–
320106); Wild and Scenic Rivers Act (Pub. L. 90–542,
82 Stat. 906 (Oct. 2, 1968) (16 U.S.C. 1271 et seq.)); the
Farmland Protection Policy Act (7 U.S.C. 4201 et seq.);
the Federal Land Policy and Management Act (Pub. L.
94–579, 90 Stat. 2743 (Oct. 21, 1976) (43 U.S.C. 1701 et
seq.)); the Wilderness Act (Pub. L. 88–577, 78 Stat. 890
(Sept. 3, 1964) (16 U.S.C. 1131 et seq.)); 43 U.S.C. 387;
the National Wildlife Refuge System Administration

App. 108
Act (Pub. L. 89–669, 80 Stat. 926 (Oct. 15, 1966) (16
U.S.C. 668dd–668ee)); National Fish and Wildlife Act
of 1956 (Pub. L. 84–1024, 70 Stat. 1119 (Aug. 8, 1956)
(16 U.S.C. 742a, et seq.)); the Fish and Wildlife Coordination Act (Pub. L. 73–121, 48 Stat. 401 (March 10,
1934) (16 U.S.C. 661 et seq.)); the National Trails System Act (16 U.S.C. 1241 et seq.); the Administrative
Procedure Act (5 U.S.C. 551 et seq.); the Wild Horse and
Burro Act (16 U.S.C. 1331 et seq.); the Rivers and Harbors Act of 1899 (33 U.S.C. 403); the National Park Service Organic Act and the National Park Service
General Authorities Act (Pub. L. 64–235, 39 Stat. 535
(Aug. 25, 1916) and Public Law 91–383, 84 Stat. 825
(Aug. 18, 1970) as amended, repealed, or replaced by
Public Law 113–287, 128 Stat. 3094 (Dec. 19, 2014)
(formerly codified at 16 U.S.C. 1, 2–4 and 16 U.S.C. 1a–
1 et seq., now codified at 54 U.S.C. 100101–100102, 54
U.S.C. 100301–100303, 54 U.S.C. 100501–100507, 54
U.S.C. 100701–100707, 54 U.S.C. 100721–100725, 54
U.S.C. 100751–100755, 54 U.S.C. 100901–100906, 54
U.S.C. 102101–102102)); Sections 401(7), 403, and 404
of the National Parks and Recreation Act of 1978 (Pub.
L. 95–625, 92 Stat. 3467 (Nov. 10, 1978)); 50 Stat. 1827
(April 13, 1937); Sections 301(a)–(f ) of the Arizona Desert Wilderness Act (Pub. L. 101–628, 104 Stat. 4469
(Nov. 28, 1990)); Arizona-Idaho Conservation Act of
1988 (Pub. L. 100–696, 102 Stat. 4571 (Nov. 18, 1988)
(16 U.S.C. 460xx)); 16 U.S.C. 450y (Pub. L. 77–216, 55
Stat. 630 (Aug. 18, 1941), as amended by Public Law
82–478, 66 Stat. 510 (July 9, 1952)); 67 Stat. c18 (Nov.
5, 1952); National Forest Management Act of 1976 (16
U.S.C. 1600 et seq.); Multiple-Use and Sustained-Yield

App. 109
Act of 1960 (16 U.S.C. 528–531); the Eagle Protection
Act (16 U.S.C. 668 et seq.); the Native American Graves
Protection and Repatriation Act (25 U.S.C. 3001 et
seq.); and the American Indian Religious Freedom Act
(42 U.S.C. 1996).
This waiver does not revoke or supersede the previous waivers published in the Federal Register on
October 26, 2007 (72 FR 60870), and April 8, 2008 (73
FR 19078), which shall remain in full force and effect
in accordance with their terms. I reserve the authority
to execute further waivers from time to time as I may
determine to be necessary under section 102 of IIRIRA.
Kevin K. McAleenan,
Acting Secretary of Homeland Security.
[FR Doc. 2019–10079 Filed 5–14–19; 8:45 am]
BILLING CODE 9111–14–P

App. 110
APPENDIX I
DEPARTMENT OF HOMELAND SECURITY
Office of the Secretary
Determination Pursuant to Section 102 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended
AGENCY: Office of the Secretary, Department of
Homeland Security.
ACTION: Notice of determination.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY: The Secretary of Homeland Security has
determined, pursuant to law, that it is necessary to
waive certain laws, regulations, and other legal requirements in order to ensure the expeditious construction of barriers and roads in the vicinity of the
international land border in Imperial County, California
DATES: This determination takes effect on May 15,
2019.
SUPPLEMENTARY INFORMATION: Important
mission requirements of the Department of Homeland
Security (“DHS”) include border security and the detection and prevention of illegal entry into the United
States. Border security is critical to the nation’s national security. Recognizing the critical importance of
border security, Congress has mandated DHS to
achieve and maintain operational control of the international land border. Secure Fence Act of 2006, Public
Law 109–367, 2, 120 Stat. 2638 (Oct. 26, 2006) (8 U.S.C.

App. 111
1701 note). Congress defined “operational control” as
the prevention of all unlawful entries into the United
States, including entries by terrorists, other unlawful
aliens, instruments of terrorism, narcotics, and other
contraband. Id. Consistent with that mandate from
Congress, the President’s Executive Order on Border
Security and Immigration Enforcement Improvements
directed executive departments and agencies to deploy
all lawful means to secure the southern border. Executive Order 13767, § 1. In order to achieve that end, the
President directed, among other things, that I take immediate steps to prevent all unlawful entries into the
United States, including the immediate construction of
physical infrastructure to prevent illegal entry. Executive Order 13767, §4(a).
Congress has provided to the Secretary of Homeland Security a number of authorities necessary to
carry out DHS’s border security mission. One of those
authorities is section 102 of the Illegal Immigration
Reform and Immigrant Responsibility Act of 1996, as
amended (“IIRIRA”). Public Law 104–208, Div. C, 110
Stat. 3009–546, 3009–554 (Sept. 30, 1996) (8 U.S.C.
1103 note), as amended by the REAL ID Act of 2005,
Public Law 109–13, Div. B, 119 Stat. 231, 302, 306 (May
11, 2005) (8 U.S.C. 1103 note), as amended by the Secure Fence Act of 2006, Public Law 109–367, 3, 120
Stat. 2638 (Oct. 26, 2006) (8 U.S.C. 1103 note), as
amended by the Department of Homeland Security Appropriations Act, 2008, Public Law 110–161, Div. E, Title V, § 564, 121 Stat. 2090 (Dec. 26, 2007). In section
102(a) of IIRIRA, Congress provided that the Secretary

App. 112
of Homeland Security shall take such actions as may
be necessary to install additional physical barriers and
roads (including the removal of obstacles to detection
of illegal entrants) in the vicinity of the United States
border to deter illegal crossings in areas of high illegal
entry into the United States. In section 102(b) of
IIRIRA, Congress mandated the installation of additional fencing, barriers, roads, lighting, cameras, and
sensors on the southwest border. Finally, in section
102(c) of IIRIRA, Congress granted to the Secretary of
Homeland Security the authority to waive all legal requirements that I, in my sole discretion, determine
necessary to ensure the expeditious construction of
barriers and roads authorized by section 102 of
IIRIRA.
Determination and Waiver
Section 1
The United States Border Patrol’s (Border Patrol)
El Centro Sector is an area of high illegal entry. In fiscal year 2018, the Border Patrol apprehended over
29,000 illegal aliens attempting to enter the United
States between border crossings in the El Centro Sector. Also in fiscal year 2018, the Border Patrol had approximately 200 separate drug-related events between
border crossings in the El Centro Sector, through
which it seized over 620 pounds of marijuana, over 165
pounds of cocaine, over 56 pounds of heroin, and over
1,600 pounds of methamphetamine. Additionally, Imperial County, California, which is located in the El

App. 113
Centro Sector, has been identified as High Intensity
Drug Trafficking Areas by the Office of National Drug
Control Policy.
During the high levels of illegal entry of people
and drugs within the El Centro Sector, I must use my
authority under section 102 of IIRIRA to install additional physical barriers and roads in the El Centro Sector. Therefore, DHS will take immediate action to
replace existing vehicle barriers in the El Centro Sector. The segment within which such construction will
occur is referred to herein as the “project area” and is
more specifically described in Section 2 below.
The existing vehicle barriers within the project
area no longer satisfy the Border Patrol’s operational
needs. Transnational criminal organizations known
for smuggling drugs into United States from Mexico
are known to operate in the area. Further, due to the
close proximity of urban areas on both sides of the border, the El Centro Sector experiences some of the
quickest vanishing times—that is, the time it takes to
illegally cross into the United States and assimilate
into local, legitimate traffic—on the border. The vanishing times facilitate the illegal activities of transnational criminal organizations, whether they are
smuggling people or narcotics. Therefore, the Border
Patrol requires a more effective barrier. The existing
vehicle barriers will be replaced with an 18 to 30 foot
barrier that employs a more operationally effective design. In addition, roads will be constructed or improved
and lighting will be installed.

App. 114
To support DHS’s action under Section 102 of
IIRIRA, DHS requested that the Department of Defense, pursuant to 10 U.S.C. 284(b)(7), assist by constructing fence, roads, and lighting within the El
Centro Sector in order to block drug smuggling corridors across the international boundary between the
United States and Mexico. The Acting Secretary of Defense has concluded that the support requested satisfies the statutory requirements of 10 U.S.C. 284(b)(7)
and that the Department of Defense will provide such
support in the project area described in Section 2 below.
Section 2
I determine that the following area in the vicinity
of the United States border, located in the State of California within the Border Patrol’s El Centro Sector, is
an area of high illegal entry (the “project area”): Starting at Border Monument 229 and extending east to approximately one and one-half miles (1.5) west of
Border Monument 223.
There is presently an acute and immediate need
to construct physical barriers and roads in the vicinity
of the border of the United States in order to prevent
unlawful entries into the United States in the project
area pursuant to sections 102(a) and 102(b) of IIRIRA.
In order to ensure the expeditious construction of the
barriers and roads in the project area, I have determined that it is necessary that I exercise the authority
that is vested in me by section 102(c) of IIRIRA.

App. 115
Accordingly, pursuant to section 102(c) of IIRIRA,
I hereby waive in their entirety, with respect to the construction of physical barriers and roads (including, but
not limited to, accessing the project area, creating and
using staging areas, the conduct of earthwork, excavation, fill, and site preparation, and installation and upkeep of physical barriers, roads, supporting elements,
drainage, erosion controls, safety features, lighting,
cameras, and sensors) in the project area, all of the following statutes, including all federal, state, or other
laws, regulations, and legal requirements of, deriving
from, or related to the subject of, the following statutes,
as amended: The National Environmental Policy Act
(Pub. L. 91–190, 83 Stat. 852 (Jan. 1, 1970) (42 U.S.C.
4321 et seq.)); the Endangered Species Act (Pub. L. 93–
205, 87 Stat. 884 (Dec. 28, 1973) (16 U.S.C. 1531 et
seq.)); the Federal Water Pollution Control Act (commonly referred to as the Clean Water Act (33 U.S.C.
1251 et seq.)); the National Historic Preservation Act
(Pub. L. 89–665, 80 Stat. 915 (Oct. 15, 1966), as
amended, repealed, or replaced by Public Law 113–
287, 128 Stat. 3094 (Dec. 19, 2014) (formerly codified
at 16 U.S.C. 470 et seq., now codified at 54 U.S.C.
100101 note and 54 U.S.C. 300101 et seq.)); the Migratory Bird Treaty Act (16 U.S.C. 703 et seq.); the Migratory Bird Conservation Act (16 U.S.C. 715 et seq.); the
Clean Air Act (42 U.S.C. 7401 et seq.); the Archeological
Resources Protection Act (Pub. L. 96–95, 93 Stat. 721
(Oct. 31, 1979) (16 U.S.C. 470aa et seq.)); the Paleontological Resources Preservation Act (16 U.S.C. 470aaa et
seq.); the Federal Cave Resources Protection Act of
1988 (16 U.S.C. 4301 et seq.); the Safe Drinking Water

App. 116
Act (42 U.S.C. 300f et seq.); the Noise Control Act (42
U.S.C. 4901 et seq.); the Solid Waste Disposal Act, as
amended by the Resource Conservation and Recovery
Act (42 U.S.C. 6901 et seq.); the Comprehensive Environmental Response, Compensation, and Liability Act
(42 U.S.C. 9601 et seq.); the Archaeological and Historic
Preservation Act (Pub. L. 86–523, 74 Stat. 220 (June
27, 1960) as amended, repealed, or replaced by Public
Law 113–287, 128 Stat. 3094 (Dec. 19, 2014) (formerly
codified at 16 U.S.C. 469 et seq., now codified at 54
U.S.C. 312502 et seq.)); the Antiquities Act (formerly
codified at 16 U.S.C. 431 et seq., now codified 54 U.S.C.
320301 et seq.); the Historic Sites, Buildings, and Antiquities Act (formerly codified at 16 U.S.C. 461 et seq.,
now codified at 54 U.S.C. 3201–320303 & 320101–
320106); the Farmland Protection Policy Act (7 U.S.C.
4201 et seq.); the Federal Land Policy and Management Act (Pub. L. 94–579, 90 Stat. 2743 (Oct. 21, 1976)
(43 U.S.C. 1701 et seq.)); National Fish and Wildlife Act
of 1956 (Pub. L. 84–1024, 70 Stat. 1119 (Aug. 8, 1956)
(16 U.S.C. 742a, et seq.)); the Fish and Wildlife Coordination Act (Pub. L. 73–121, 48 Stat. 401 (March 10,
1934) (16 U.S.C. 661 et seq.)); the National Trails System Act (16 U.S.C. 1241 et seq.); the Administrative
Procedure Act (5 U.S.C. 551 et seq.); the Wild Horse and
Burro Act (16 U.S.C. 1331 et seq.); the Rivers and Harbors Act of 1899 (33 U.S.C. 403); the Eagle Protection
Act (16 U.S.C. 668 et seq.); the Native American Graves
Protection and Repatriation Act (25 U.S.C. 3001 et
seq.); the American Indian Religious Freedom Act (42
U.S.C. 1996); 43 U.S.C. 387; the Wilderness Act (Pub. L.
88–577, 78 Stat. 890 (Sept. 3, 1964) (16 U.S.C. 1131 et

App. 117
seq.)); and sections 102(29) and 103 of Title I of the California Desert Protection Act (Pub. L. 103–433, 108
Stat. 4471 (Oct. 31, 1994)).
This waiver does not revoke or supersede the previous waiver published in the Federal Register on
April 8, 2008 (73 FR 19078), which shall remain in full
force and effect in accordance with its terms. I reserve
the authority to execute further waivers from time to
time as I may determine to be necessary under section
102 of IIRIRA.
Kevin K. McAleenan,
Acting Secretary of Homeland Security.
[FR Doc. 2019–10080 Filed 5–14–19; 8:45 am]
BILLING CODE 9111–14–P

App. 118
APPENDIX J
DEPARTMENT OF HOMELAND SECURITY
Office of the Secretary
Determination Pursuant to Section 102 of the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996, as Amended
AGENCY: Office of the Secretary, Department of
Homeland Security.
ACTION: Notice of determination.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY: The Secretary of Homeland Security has
determined, pursuant to law, that it is necessary to
waive certain laws, regulations, and other legal requirements in order to ensure the expeditious construction of barriers and roads in the vicinity of the
international land border near Tecate and Calexico,
California.
DATES: This determination takes effect on May 15,
2019.
SUPPLEMENTARY INFORMATION: Important
mission requirements of the Department of Homeland
Security (“DHS”) include border security and the detection and prevention of illegal entry into the United
States. Border security is critical to the nation’s national security. Recognizing the critical importance of
border security, Congress has mandated DHS to
achieve and maintain operational control of the international land border. Secure Fence Act of 2006, Public
Law 109–367, 2, 120 Stat. 2638 (Oct. 26, 2006) (8 U.S.C.

App. 119
1701 note). Congress defined “operational control” as
the prevention of all unlawful entries into the United
States, including entries by terrorists, other unlawful
aliens, instruments of terrorism, narcotics, and other
contraband. Id. Consistent with that mandate from
Congress, the President’s Executive Order on Border
Security and Immigration Enforcement Improvements
directed executive departments and agencies to deploy
all lawful means to secure the southern border. Executive Order 13767, § 1. In order to achieve that end, the
President directed, among other things, that I take immediate steps to prevent all unlawful entries into the
United States, including the immediate construction of
physical infrastructure to prevent illegal entry. Executive Order 13767, §4(a).
Congress has provided to the Secretary of Homeland Security a number of authorities necessary to
carry out DHS’s border security mission. One of those
authorities is section 102 of the Illegal Immigration
Reform and Immigrant Responsibility Act of 1996, as
amended (“IIRIRA”). Public Law 104–208, Div. C, 110
Stat. 3009–546, 3009–554 (Sept. 30, 1996) (8 U.S.C.
1103 note), as amended by the REAL ID Act of 2005,
Public Law 109–13, Div. B, 119 Stat. 231, 302, 306 (May
11, 2005) (8 U.S.C. 1103 note), as amended by the Secure Fence Act of 2006, Public Law 109–367, 3, 120
Stat. 2638 (Oct. 26, 2006) (8 U.S.C. 1103 note), as
amended by the Department of Homeland Security Appropriations Act, 2008, Public Law 110–161, Div. E, Title V, § 564, 121 Stat. 2090 (Dec. 26, 2007). In section
102(a) of IIRIRA, Congress provided that the Secretary

App. 120
of Homeland Security shall take such actions as may
be necessary to install additional physical barriers and
roads (including the removal of obstacles to detection
of illegal entrants) in the vicinity of the United States
border to deter illegal crossings in areas of high illegal
entry into the United States. In section 102(b) of
IIRIRA, Congress mandated the installation of additional fencing, barriers, roads, lighting, cameras, and
sensors on the southwest border. Finally, in section
102(c) of IIRIRA, Congress granted to the Secretary of
Homeland Security the authority to waive all legal requirements that I, in my sole discretion, determine
necessary to ensure the expeditious construction of
barriers and roads authorized by section 102 of
IIRIRA.
Determination and Waiver
Section 1
The United States Border Patrol’s (Border Patrol)
San Diego and El Centro Sectors are areas of high illegal entry. In fiscal year 2018 alone, the Border Patrol
apprehended over 38,000 illegal aliens attempting to
enter the United States between border crossings in
the San Diego Sector. In that same year, the Border Patrol had over 500 separate drug-related events between border crossings in the San Diego Sector,
through which it seized approximately 8,700 pounds of
marijuana, approximately 1,800 pounds of cocaine,
over 175 pounds of heroin, and over 5,100 pounds of
methamphetamine. In fiscal year 2018, the Border

App. 121
Patrol apprehended over 29,000 illegal aliens attempting to enter the United States between border crossings in the El Centro Sector. Also in fiscal year 2018,
the Border Patrol had approximately 200 separate
drug-related events between border crossings in the El
Centro Sector, through which it seized over 620 pounds
of marijuana, over 165 pounds of cocaine, over 56
pounds of heroin, and over 1,600 pounds of methamphetamine.
Due to the high levels of illegal entry within the
San Diego and El Centro Sectors, I must use my authority under section 102 of IIRIRA to install additional physical barriers and roads in the San Diego and
El Centro Sectors. Therefore, DHS will take immediate
action to replace existing barriers in the San Diego and
El Centro Sectors. The segments of the border within
which such construction will occur are referred to
herein as the “project areas” and are more specifically
described in Section 2 below. Congress provided funding for these projects in the Fiscal Year 2018 DHS Appropriations Act, Public Law 115–141, Division F, Title
II, § 230.
The replacement of primary fencing within the
project areas will further the Border Patrol’s ability to
deter and prevent illegal crossings. The existing barriers were constructed between the early-to-mid 1990s
and mid-to-late 2000s. The existing barriers will be replaced with 18 to 30 foot barriers that employ a more
operationally effective design that is intended to meet
the Border Patrol’s operational requirements. In

App. 122
addition, DHS will, where necessary, make improvements to existing roads within the project areas.
Section 2
I determine that the following areas in the vicinity
of the United States border, located in the State of California within the Border Patrol’s San Diego and El
Centro Sectors, are areas of high illegal entry (the “project areas”):
• Within the San Diego Sector, starting approximately one mile west of Border Monument 245 and
extending east to approximately one mile east of Border Monument 243;
• Within the El Centro Sector, starting approximately one and one-half (1.5) miles west of Border
Monument 223 and extending east approximately
eight miles; and
• Within the El Centro Sector, starting at Border Monument 221 and extending east to Border Monument 219.
There is presently an acute and immediate need
to construct physical barriers and roads in the vicinity
of the border of the United States in order to prevent
unlawful entries into the United States in the project
areas pursuant to sections 102(a) and 102(b) of
IIRIRA. In order to ensure the expeditious construction of the barriers and roads in the project areas I
have determined that it is necessary that I exercise the

App. 123
authority that is vested in me by section 102(c) of
IIRIRA.
Accordingly, pursuant to section 102(c) of IIRIRA,
I hereby waive in their entirety, with respect to the construction of roads and physical barriers (including, but
not limited to, accessing the project areas, creating and
using staging areas, the conduct of earthwork, excavation, fill, and site preparation, and installation and upkeep of physical barriers, roads, supporting elements,
drainage, erosion controls, safety features, lighting,
cameras, and sensors) in the project areas, all of the
following statutes, including all federal, state, or other
laws, regulations, and legal requirements of, deriving
from, or related to the subject of, the following statutes,
as amended:
The National Environmental Policy Act (Pub. L.
91–190, 83 Stat. 852 (Jan. 1, 1970) (42 U.S.C. 4321 et
seq.)); the Endangered Species Act (Pub. L. 93–205, 87
Stat. 884 (Dec. 28, 1973) (16 U.S.C. 1531 et seq.)); the
Federal Water Pollution Control Act (commonly referred to as the Clean Water Act (33 U.S.C. 1251 et
seq.)); the National Historic Preservation Act (Pub. L.
89–665, 80 Stat. 915 (Oct. 15, 1966), as amended, repealed, or replaced by Pub. L. 113–287 (Dec. 19, 2014)
(formerly codified at 16 U.S.C. 470 et seq., now codified
at 54 U.S.C. 100101 note and 54 U.S.C. 300101 et seq.));
the Migratory Bird Treaty Act (16 U.S.C. 703 et seq.);
the Migratory Bird Conservation Act (16 U.S.C. 715 et
seq.); the Clean Air Act (42 U.S.C. 7401 et seq.); the Archeological Resources Protection Act (Pub. L. 96–95, 93
Stat. 721 (Oct. 31, 1979) (16 U.S.C. 470aa et seq.)); the

App. 124
Paleontological Resources Preservation Act (16 U.S.C.
470aaa et seq.); the Federal Cave Resources Protection
Act of 1988 (16 U.S.C. 4301 et seq.); the National Trails
System Act (16 U.S.C. 1241 et seq.); the Safe Drinking
Water Act (42 U.S.C. 300f et seq.); the Noise Control Act
(42 U.S.C. 4901 et seq.); the Solid Waste Disposal Act,
as amended by the Resource Conservation and Recovery Act (42 U.S.C. 6901 et seq.); the Comprehensive Environmental Response, Compensation, and Liability
Act (42 U.S.C. 9601 et seq.); the Archaeological and Historic Preservation Act (Pub. L. 86–523, 74 Stat. 220
(June 27, 1960) as amended, repealed, or replaced by
Pub. L. 113–287, 128 Stat. 3094 (Dec. 19, 2014) (formerly codified at 16 U.S.C. 469 et seq., now codified at
54 U.S.C. 312502 et seq.)); the Antiquities Act (formerly
codified at 16 U.S.C. 431 et seq., now codified 54 U.S.C.
320301 et seq.); the Historic Sites, Buildings, and Antiquities Act (formerly codified at 16 U.S.C. 461 et seq.,
now codified at 54 U.S.C. 3201–320303 & 320101–
320106); the Wild and Scenic Rivers Act (Pub. L. 90–
542 (16 U.S.C. 1281 et seq.)); the Farmland Protection
Policy Act (7 U.S.C. 4201 et seq.); the Federal Land Policy and Management Act (Pub. L. 94–579, 90 Stat. 2743
(Oct. 21, 1976) (43 U.S.C. 1701 et seq.)); National Fish
and Wildlife Act of 1956 (Pub. L. 84–1024, 70 Stat. 1119
(Aug. 8, 1956) (16 U.S.C. 742a, et seq.)); the Fish and
Wildlife Coordination Act (Pub. L. 73–121, 48 Stat. 401
(March 10, 1934) (16 U.S.C. 661 et seq.)); the Wild
Horse and Burro Act (16 U.S.C. 1331 et seq.); the Administrative Procedure Act (5 U.S.C. 551 et seq.); the
Rivers and Harbors Act of 1899 (33 U.S.C. 403); the Eagle Protection Act (16 U.S.C. 668 et seq.); the Native

App. 125
American Graves Protection and Repatriation Act (25
U.S.C. 3001 et seq.); the American Indian Religious
Freedom Act (42 U.S.C. 1996); and 43 U.S.C. 387.
This waiver does not revoke or supersede the previous waivers published in the Federal Register on
April 8, 2008 (73 FR 19078), and on September 12,
2017 (82 FR 42829), which shall remain in full force
and effect in accordance with their terms. I reserve the
authority to execute further waivers from time to time
as I may determine to be necessary under section 102
of IIRIRA.
Kevin K. McAleenan,
Acting Secretary of Homeland Security.
[FR Doc. 2019–10078 Filed 5–14–19; 8:45 am]
BILLING CODE 9111–14–P

